<html>
<title> - OVERSIGHT HEARING ON ARCTIC SNOW GEESE</title>
<body><pre>[House Hearing, 105 Congress]
[From the U.S. Government Printing Office]



 
                 OVERSIGHT HEARING ON ARCTIC SNOW GEESE

=======================================================================

                                HEARING

                               before the

      SUBCOMMITTEE ON FISHERIES CONSERVATION, WILDLIFE AND OCEANS

                                 of the

                         COMMITTEE ON RESOURCES
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED FIFTH CONGRESS

                             SECOND SESSION

                               __________

                     APRIL 23, 1998, WASHINGTON, DC

                               __________

                           Serial No. 105-81

                               __________

           Printed for the use of the Committee on Resources

                               ----------

                    U.S. GOVERNMENT PRINTING OFFICE
48-615 cc                   WASHINGTON : 1998




                         COMMITTEE ON RESOURCES

                      DON YOUNG, Alaska, Chairman
W.J. (BILLY) TAUZIN, Louisiana       GEORGE MILLER, California
JAMES V. HANSEN, Utah                EDWARD J. MARKEY, Massachusetts
JIM SAXTON, New Jersey               NICK J. RAHALL II, West Virginia
ELTON GALLEGLY, California           BRUCE F. VENTO, Minnesota
JOHN J. DUNCAN, Jr., Tennessee       DALE E. KILDEE, Michigan
JOEL HEFLEY, Colorado                PETER A. DeFAZIO, Oregon
JOHN T. DOOLITTLE, California        ENI F.H. FALEOMAVAEGA, American 
WAYNE T. GILCHREST, Maryland             Samoa
KEN CALVERT, California              NEIL ABERCROMBIE, Hawaii
RICHARD W. POMBO, California         SOLOMON P. ORTIZ, Texas
BARBARA CUBIN, Wyoming               OWEN B. PICKETT, Virginia
HELEN CHENOWETH, Idaho               FRANK PALLONE, Jr., New Jersey
LINDA SMITH, Washington              CALVIN M. DOOLEY, California
GEORGE P. RADANOVICH, California     CARLOS A. ROMERO-BARCELO, Puerto 
WALTER B. JONES, Jr., North              Rico
    Carolina                         MAURICE D. HINCHEY, New York
WILLIAM M. (MAC) THORNBERRY, Texas   ROBERT A. UNDERWOOD, Guam
JOHN SHADEGG, Arizona                SAM FARR, California
JOHN E. ENSIGN, Nevada               PATRICK J. KENNEDY, Rhode Island
ROBERT F. SMITH, Oregon              ADAM SMITH, Washington
CHRIS CANNON, Utah                   WILLIAM D. DELAHUNT, Massachusetts
KEVIN BRADY, Texas                   CHRIS JOHN, Louisiana
JOHN PETERSON, Pennsylvania          DONNA CHRISTIAN-GREEN, Virgin 
RICK HILL, Montana                       Islands
BOB SCHAFFER, Colorado               RON KIND, Wisconsin
JIM GIBBONS, Nevada                  LLOYD DOGGETT, Texas
MICHAEL D. CRAPO, Idaho

                     Lloyd A. Jones, Chief of Staff
                   Elizabeth Megginson, Chief Counsel
              Christine Kennedy, Chief Clerk/Administrator
                John Lawrence, Democratic Staff Director
                                 ------                                

      Subcommittee on Fisheries Conservation, Wildlife and Oceans

                    JIM SAXTON, New Jersey, Chairman
W.J. (BILLY) TAUZIN, Louisiana       FRANK PALLONE, Jr., New Jersey
WAYNE T. GILCHREST, Maryland         NEIL ABERCROMBIE, Hawaii
WALTER B. JONES, Jr., North          SOLOMON P. ORTIZ, Texas
    Carolina                         SAM FARR, California
JOHN PETERSON, Pennsylvania          PATRICK J. KENNEDY, Rhode Island
MICHAEL D. CRAPO, Idaho
                    Harry Burroughs, Staff Director
                    John Rayfield, Legislative Staff
                  Christopher Mann, Legislative Staff
                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held April 23, 1998......................................     1

Statement of Members:
    Cunningham, Hon. Randy ``Duke'', a Representative in Congress 
      from the State of California...............................     3
        Prepared statement of....................................     5
    Farr, Hon. Sam, a Representative in Congress from the State 
      of California..............................................     2
    Gilchrest, Hon. Wayne T., a Representative in Congress from 
      the State of Maryland......................................     1
    Hunter, Hon. Duncan, a Representative in Congress from the 
      State of California........................................     6
        Prepared statement of....................................     8
    Pallone, Hon. Frank, Jr., a Representative in Congress from 
      the State of New Jersey....................................     2
    Tanner, Hon. John S., a Representative in Congress from the 
      State of Tennessee, prepared statement of..................    29
    Young, Hon. Don, a Representative in Congress from the State 
      of Alaska, prepared statement of...........................    28

Statement of Witnesses:
    Batt, Bruce, Chairman, Arctic Goose Habitat Working Group and 
      Chief Biologist, Ducks Unlimited, Inc......................    18
        Prepared statement of....................................    35
    Gill, Dr. Frank, Senior Vice President, Science, National 
      Audubon Society............................................    22
        Prepared statement of....................................    39
    Holmes, Roger, Chairman, Migratory Wildlife Committee, and 
      Vice President, International Association of Fish and 
      Wildlife Agencies..........................................    20
        Prepared statement of....................................    37
    Peterson, R. Max, Executive Vice President, International 
      Association of Fish and Wildlife Agencies, letter to 
      Senator Gorton.............................................    53
    Schmidt, Paul, Chief, Office of Migratory Bird Management, 
      U.S. Fish and Wildlife Service.............................    16
        Prepared statement of....................................    32
    Sparrowe, Rollin, President, Wildlife Management Institute...    14
        Prepared statement of....................................    45

Additional material supplied:
    Canadian Wildlife Service, prepared statement of.............    56
    Chretien, Ambassador Raymond, prepared statement of..........    55
    Grandy, John W., Ph.D., prepared statement of................    42
    Putten, Mark Van, President, National Wildlife Federation....    41


                 OVERSIGHT HEARING ON ARCTIC SNOW GEESE

                              ----------                              


                        THURSDAY, APRIL 23, 1998

        House of Representatives, Subcommittee on Fisheries 
            Conservation, Wildlife and Oceans, Committee on 
            Resources, Washington, DC.
    The Subcommittee met, pursuant to notice, at 2:10 p.m., in 
room 1334, Longworth House Office Building, Hon. Wayne T. 
Gilchrest [acting chairman of the Subcommittee] presiding.

   STATEMENT OF HON. WAYNE T. GILCHREST, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MARYLAND

    Mr. Gilchrest. [presiding] The Subcommittee will come to 
order. Good afternoon. The purpose of today's hearing is to 
discuss the ongoing destruction of the Arctic tundra by lesser 
snow geese, and H. Con. Res. 175, introduced by Duncan Hunter 
and Duke Cunningham.
    According to the Fish and Wildlife Service, whose 
biologists have been monitoring the snow geese population since 
1948, there has been a dramatic increase in snow geese, from 
800,000 in 1969, to five million today. This huge population 
increase has reduced thousands of acres of once thickly 
vegetated salt and fresh water marsh to a virtual desert. This 
has had the net effect of driving other species out and 
destroying valuable habitat.
    Under current law, the Fish and Wildlife Service has tried 
to address the problem of overabundance by increasing hunting 
opportunities. Despite liberalizing hunting regulations, the 
population continues to increase by at least 5 percent each 
year. This increase is causing irreparable damage to fragile 
Arctic ecosystems.
    House Con. Resolution 175 expresses the sense of Congress 
that there is a need for a comprehensive management strategy to 
save the tundra from excessive deprivation by mid-continent 
snow geese. It also directs the Fish and Wildlife Service to 
take comprehensive action to reduce the population of mid-
continent snow geese to levels that can be supported without 
the destruction of tundra ecosystems, and are consistent with 
sound biological management principles.
    I look forward to hearing from today's witnesses. Mr. 
Tanner was to be one of our witnesses, but unfortunately his 
mother passed away, so he can't make it here today. Does Mr. 
Pallone have an opening statement?

   STATEMENT OF HON. FRANK PALLONE, JR., A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF NEW JERSEY

    Mr. Pallone. Mr. Chairman, I can understand the phenomena 
and I know that in New Jersey they've also tried to have, you 
know, greater amounts of hunting seasons to try to deal with 
the problem, and apparently that has not had a lot of success 
in New Jersey as well, so I can certainly relate to the 
problem. But I understand there's no consensus on the best 
approach at this point to solve the issue, so I will be 
interested in hearing what Mr. Cunningham and the others would 
say on the issue. Thank you.
    Mr. Gilchrest. Sam, you want to say anything?

 STATEMENT OF HON. SAM FARR, A REPRESENTATIVE IN CONGRESS FROM 
                    THE STATE OF CALIFORNIA

    Mr. Farr. Thank you, Mr. Chairman. Although this is not 
something that's affecting our back yard in California, it is 
affecting the nation's back yard. I would hope in the testimony 
to learn two things I couldn't pull out from reading the 
resolution. As I understand it, the geese are born in Canada 
and they come back to the tundra there to breed, and there's a 
big problem with the excessive degradation of the tundra 
nesting habitat.
    But it seems to me, if you're going to have a comprehensive 
management strategy, you're going to have to, one, involve the 
Canadians, because the geese originate there and go back there. 
And two, how do you determine that the geese we hunt in this 
coutry are from an area of Canadian tundra that is being 
destroyed? Is there a causal connection between what you're 
doing, the management program, the hunting program down here, 
and the habitat destruction in Canada? Are they the same geese, 
or are they different flocks? Are we really dealing with the 
tundra problem? That wasn't clear in the resolution, and I'd 
appreciate perhaps if we could hear that in the testimony. 
Thank you.
    Mr. Gilchrest. Thank you. I'll make a quick comment about 
the snow geese. Fifteen, twenty years ago, you would be hard-
pressed to find snow geese on the Eastern Shore of Maryland. 
Right now, and I know the snow geese that we see on the Eastern 
Shore of Maryland are not from the same flyway as the kind of 
snow geese we're talking about today, but the snow geese on the 
Eastern Shore of Maryland now pretty much rival the Canada 
geese, so there is a huge increase. And not only are they 
rivaling the Canada geese, but also they are beginning to move 
the Canada geese out of their traditional grounds on the 
Eastern Shore of Maryland.
    While we've had a 5-year moratorium, I think we're in the 
third or fourth year now of the Canada geese, you can hunt snow 
geese from September to January, 5 a day, 6 days a week, not on 
Sunday. And people don't--it's very difficult to hunt the snow 
geese in the same way that it would be difficult to shoot a 
swarm of bees. The Canada geese come down in a beautiful V-
shape, they're easy to decoy, not that I want to do it any more 
because I can go to the grocery store, so I like to see them 
fly, but people do and that's fine. But when the Canada geese 
come down--and they come down, they swirl around like bees, and 
if you spook them up, they're not going to come back for a 
while, they'll land someplace else. So they're very difficult 
to hunt.
    So I think, to a great extent, this legislation is 
important, and Duke, we look forward to your testimony.

 STATEMENT OF HON. RANDY ``DUKE'' CUNNINGHAM, A REPRESENTATIVE 
            IN CONGRESS FROM THE STATE OF CALIFORNIA

    Mr. Cunningham. Thank you, Mr. Chairman, and I would like 
to thank you, and I hope I can answer Mr. Farr's and Mr. 
Pallone's questions in the testimony.
    First of all, you know about our colleague, Mr. Tanner. I 
lost my dad a couple years ago, and I understand the pain that 
he's going through, and I'm sorry that he can't be here. He is 
the co-chairman, with myself, of the sportsman's caucus, and we 
will miss his presentation. Congressman Hunter, who just 
arrived, is always late, so that's excusable.
    [Laughter.]
    Mr. Cunningham. Hi, Duncan. But we miss Mr. Tanner, and Mr. 
Hunter is also on the sportsman's caucus.
    Secondly, I empathize with Mr. Pallone with the Canadian 
geese up in New Jersey, because, as you're well aware on the 
Eastern Shore, they've not been able to hunt Canadians for the 
last three years. They say that they were immature Canadians 
and they wanted them to grow, but it also affects other 
portions of the country. So this does tie in, as well, with the 
Canadian geese.
    I would say that what we've done, much like you have done, 
Mr. Chairman, on the tuna-dolphin bill. We've gone with a 
working group of a diverse group. We've included environmental 
groups, private groups, hunting groups, to sit and look at a 
real problem we have, and I think that's the reason why we're 
going to have success within the program itself.
    And if you look at the tundra, where over 200 species of 
birds feed, and nest, and propagate, it is a desert. There are 
areas in which they can't feed, they can't nest, and it's not 
only going to decimate the snow geese. It's going to decimate 
the environment and the other species that live and propagate 
off this portion of the land itself.
    But the working groups--we've got U.S. Fish and Wildlife, 
Canadian wildlife services, State wildlife agencies, non-
governmental organizations, and it's documented within this 
text that I have. I'd be happy to give a copy to the Committee, 
on what the recommendations are. And again, this is a very 
diverse group that sat down and said, we've got a problem, how 
do we fix it in a very partisan-like way. And I'm proud of that 
working group and what they've been able to accomplish.
    Mr. Gilchrest. Duke, would you like--I could ask unanimous 
consent that that document be put into the record.
    Mr. Cunningham. Yes, I'd like to do that, Mr. Chairman.
    [The information referred to may be found at end of 
hearing.]
    Mr. Cunningham. ``Arctic Ecosystems in Peril: Report of the 
Goose Habitat Working Group--A special publication of the 
Arctic Goose Joint Venture of the North American Waterfowl 
Management Plan.''
    And it'd be available for anybody that would like to read 
it. It's 118 pages, and I think it will point out some good 
things.
    What's happened is that there's about a 50 percent increase 
on the snow geese, and they've decimated--I mean, absolutely, 
completely decimated about 35 percent of tundra. And if you 
look at it, we have pictures in the book, and I think we've got 
some posters, that show just how devastating this is. Over half 
of it has been damaged, besides the 35 percent. And if we allow 
this to go in the same order, that over 200 other species of 
birds--not just birds, but other wildlife that depend on the 
tundra--will be decimated in the fragile Arctic ecosystem 
itself.
    The working group has a final goal of reduction of snow 
geese by about 50 percent. Now, I would tell you that the 
Canadians have come up with some pretty extreme measures, 
including poisoning, napalming, everything across the board to 
decimate these birds, which is totally unacceptable, I think, 
to most Americans, and most any group to get rid of the birds. 
But it is destroying their homeland and they want to get rid of 
them.
    The working group has come up with some pretty good areas. 
Hunters count for about 68 percent of the harvesting of these 
animals, and that's one way, but that's only a part of the 
solution. We want to encourage more people, like you say, to 
extend the hunting season, to allow us to go into areas where 
we haven't gone--refuge systems, and areas to where they 
reside. But including that is a better information system to 
our cities, to people that hunt, for example, on Internet, or 
the Fish and Wildlife, to let people know, as you--as the 
chairman mentioned, these are pretty wary birds. They're 
difficult to hunt, they're smart, they even see a glint of 
something and they're gone. They go to another area. So just 
knowing where they are, and the way to do that is very, very 
helpful.
    I would say the direct control, which is an alternative, is 
of last. That's from trapping, netting, even poisoning and some 
of the other things that I've mentioned before. But the area in 
which I think we can really work together to help this is, look 
at the management system for not just snow geese, but for the 
rest of it, because the Canadians, along with the snow geese 
and 200 other birds' habitat in this specific area.
    I think the American sportsman has stepped up to the plate 
in many, many areas. The fees, the licenses, have gone to 
purchase additional lands, in which we'll help. There's such 
things that we can recommend, like, for example, putting in 
feed lots for the birds in the tundra area, which will attract 
the birds while the tundra is able to restore itself. To keep 
the birds away from tundra, there's noisemakers, there's other 
things that we can do that are all recommendations within the 
report itself.
    But I thank the Committee for looking at this. It's an area 
in which I think we can, like the oceans bill, we can support 
unanimously with the different efforts, because they save the 
ecosystem, they work with wildlife management, based on a 
scientific plan, and that's based from a very diverse group 
itself.
    And I yield back the balance of my time, and would yield to 
my colleague, my late colleague, Mr. Hunter.
    [Laughter.]
    [The prepared statement of Mr. Cunningham follows:]

   Statement of Hon. Randy ``Duke'' Cunningham, a Representative in 
                 Congress from the State of California

    Subcommittee Chairman Saxton, Members of the Subcommittee, 
thank you for offering me the opportunity to speak on the 
``Arctic Ecosystems in Peril'' report. As Co-Chairman of the 
Congressional Sportsmen's Caucus and an avid hunter, I believe 
that today's hearing will provide this Committee a glimpse at 
the success of our nation's waterfowl management programs.
    We are here today to address the Arctic Goose Habitat 
Working Group report ``Arctic Ecosystems in Peril.'' The Arctic 
Goose Joint Venture Technical Committee formed the Arctic Goose 
Habitat Working Group to establish a scientific approach to the 
problem of habitat degradation on the Canadian tundra. The 
working group contained representatives from the U.S. Fish and 
Wildlife Service, Canadian Wildlife service, several state 
wildlife agencies, and nongovernmental conservation 
organizations.
    This well documented 118-page report shows that across 
Canada, lesser snow geese have permanently destroyed as much as 
35 percent of their nesting habitat; severely ``damaged'' 
another 30 percent so badly that it no longer will serve as a 
reliable food source; and the remaining 35 percent of habitat 
is beginning to show signs of overpopulation stress. If this 
trend is not checked and reversed, the geese populations will 
be in serious jeopardy of catastrophic collapse.
    Simultaneously, this habitat destruction is severely 
impacting 200 other species of birds and wildlife that share 
the fragile arctic ecosystem.
    The working group report recommends that we should 
establish a goal of reducing the snow goose population by 
between 5-15 percent per year, toward a final goal of a 50 
percent reduction by 2005.
    To reach this goal, I believe that hunters can and must be 
a part of the solution. Right now hunters account for 68 
percent of adult snow goose mortality. Because snow geese are 
most susceptible to harvest during their migration and in 
winter, American hunters and waterfowl managers have a 
responsibility to craft solutions to this problem.
    The Working Group report offers recommendations that they 
believe will increase the annual recreational harvest. These 
recommendations include the use of electronic callers, 
increased access to refuges and private lands, longer hunting 
seasons, and review of laws regarding shell limits, creeping, 
and baiting.
    While we should examine all of those recommendations and 
will likely increase the take of hunters, I believe that we 
should use this opportunity to encourage more people to begin 
hunting.
    The working group report discussed several programs that 
might accomplish that goal. These programs should focus on 
giving people who live in our suburban neighborhoods 
opportunities to return to the outdoors and enjoy hunting.
    In addition, I believe that states should consider 
expanding informational resources hunters can use to track and 
hunt snow geese. In my southern California coastal district, 
surfers use the Internet to track surf and weather. State 
wildlife agencies or regional sportsmen's groups could begin a 
similar Internet-based update program for hunters of snow 
geese. Such a program would allow farmers and waterfowl 
managers to report areas where geese remain for an extended 
period. They could publish these reports on the Internet, 
allowing hunters to plan trips with a greater likelihood of 
success.
    Even if we initiate these solutions, there is a chance that 
recreational hunting cannot solve the problem. Such failure 
would force state and Federal agencies to initiate ``direct 
control'' through trapping, netting or even more severe 
alternatives.
    For that reason, it is important that we begin to take 
action now. Rep. Hunter and I have introduced H.Con.Res 175, 
which lends Congress' support to the need for immediate action 
to develop a comprehensive management strategy to save the 
vital tundra ecosystem of North America.
    America's sportsmen have always responded when called upon 
to conserve our nation's resources. Sportsmen's dollars, 
through the Pittman-Robertson and Wallop-Breaux fees, 
established the refuges used by these waterfowl. American 
sportsmen stand ready to help solve the problem facing the 
Canadian arctic tundra.
    Thank you.

    Mr. Gilchrest. Mr. Hunter. Thank you for coming.

 STATEMENT OF HON. DUNCAN HUNTER, A REPRESENTATIVE IN CONGRESS 
                  FROM THE STATE OF CALIFORNIA

    Mr. Hunter. Thank you, Mr. Chairman, and it's a pleasure to 
be here with my good, good friend and fellow conservationist, 
Duke Cunningham, and I'm glad that he had the foresight and the 
wisdom to co-sponsor my bill. He's a good man.
    But, seriously, Mr. Chairman, we are concerned, as I think 
most Americans are about wildlife and their well-being. Our 
waterfowl populations are, generally speaking, on a rebound 
throughout the country. A great of deal of that should be 
credited to people who hunt and fish in this country. As you 
know, as a resident of the Eastern Shore, who also is a great 
conservationist, these hunters buy licenses, they pay in taxes 
under Pittman-Robinson for wetlands that are developed, and as 
a result of that, are conservationists in the tradition of 
Teddy Roosevelt. And Mr. Chairman, I commend you for everything 
that you've done, because you've done a lot.
    But in the tradition of Teddy Roosevelt, we've really 
brought back a lot of wildlife species, and this is an unusual 
problem, because we brought back the snow goose to numbers that 
are now detrimental to the environment. And the interesting 
thing about the Arctic tundra, particularly around Hudson Bay, 
which is being decimated by this five million goose population 
of mid-continent, lesser snow geese, is that tundra is 
irreplaceable. We can go in other places in the continent, we 
can build nesting ponds, we can excavate sloughs and marshes. 
You can't replace tundra. And in these places where we've made 
the test, where the snow geese have overgrazed the tundra, 
we'll actually have a fence around a piece of tundra, so it's a 
place where we can see the difference between places that are 
being grazed by the geese and places that are fenced off. The 
fenced off areas have not come back, Mr. Chairman. And it looks 
like some of it may be permanently damaged, which is very 
tragic.
    But the second tragedy, and the compounding of this 
tragedy, would be if we don't do anything about it. Now, as 
Duke said, you've got about five million snow geese, so they've 
increased, these mid-continent and lesser snow geese have 
increased in numbers, from 900,000 to over 5 million between 
1969 and the present day. The problem is further compounded by 
the fact that you have very smart birds. The average age now of 
a snow goose is about 8 years old. They're very wary. They tend 
to congregate in very large flocks. And they know when to find 
a refuge.
    So the alternatives that Duke laid out, particularly of 
poisoning in their nesting grounds, is, I think, something that 
most Americans don't want to see. And the answer has to be a 
marriage, or a partnership between sportsmen and 
environmentalists who do most of the harvesting of snow geese 
in this country.
    And, incidentally, Mr. Chairman, these snow geese go to 
families who enjoy geese, not just having a goose for 
Thanksgiving or Christmas, but it's excellent table fare. It 
goes to feed people. We have programs, Food for the Hungry for 
example, that sportsmen run, so if we shoot, if we increase our 
harvest of snow geese in the United States, we're going to see 
that resource, that food, that meat go to people who can use 
it. We've done an excellent job of doing that in the past with 
all types of wildlife, from deer on down. We can do that with 
snow geese. That's much preferable to poisoning snow geese in 
their nesting grounds as a last, desperate attempt to keep them 
from destroying the Arctic tundra.
    So our bill, the bill that Duke and I are offering, says to 
the Fish and Wildlife, we're behind you. Let's get on with this 
business of reducing the snow goose population, from the five 
million numbers that we are experiencing to something that can 
be biologically supported, and the expert evidence is to the 
effect that that's about 2.5 million birds. Now, to do that, 
we're going to need probably to extend seasons. We're going to 
need to--that means that the season, instead of ending, say, 
January 30, or January 15 in most of the snow goose areas, and 
that's about, that's where the latest seasons run, generally, 
only to the end of January, extending those seasons.
    It also means educating farmers, so if one farmer has 
60,000 snow geese on his particular ranch or farm, he allows 
Fish and Wildlife to go in, and either let hunters come in and 
hunt them, or disturb them so they will move off into areas 
where they can be harvested, where they can be taken. So it 
involves an education program in the communities where snow 
geese congregate.
    It also involves our wildlife hunting areas that are 
maintained by the State and by the Federal Governments, where 
you have great congregations of snow geese, and these smart 
birds find out where they can't be shot. But it's going to 
involve seeing to it that those wildlife managers that manage 
that area are given, I think, a quota of birds to be reduced, 
and that they develop a hunting pattern or a hunting blueprint 
that will allow America's sportsmen to come in and take the 
requisite number of birds that will allow the Arctic tundra to 
be saved, and to have that certain ratio or number of birds 
harvested from their particular area of responsibility.
    So this has to be a partnership between lots of folks who 
haven't necessarily been partners before, and that includes the 
sporting community, the hunting community, the fishing 
community, and the community that's just concerned about 
wildlife, like the Audubon Society, the Humane Society, and 
other groups that want to see not only the snow geese survive 
as a species, but also the other 200 species of birds that Duke 
mentioned that also share that nesting ground. Every time an 
acre of Arctic tundra is permanently destroyed, it's destroyed 
not just for the snow goose, it's destroyed for every single 
nesting specie that utilizes that particular type of habitat.
    So, Mr. Chairman, this bill urges Fish and Wildlife to move 
forward promptly, put this blueprint in place, and start this 
very, very important conservation process of bringing these 
numbers down to a biologically sustainable level and a 
manageable level.
    Thank you, Mr. Chairman, and, incidentally, thank you for 
all of the great conservation work that you do in this House, 
and the great stewardship that you have undertaken for fish and 
wildlife not only nationally, in your role as chairman, but 
also in your home State of Maryland. I very much respect that 
record, I think you've got a great record there.
    Thank you, Mr. Chairman.
    [The prepared statement of Mr. Hunter follows:]

Statement of Hon. Duncan Hunter, a Representative in Congress from the 
                          State of California

    Mr. Chairman, I would like to begin by thanking you for 
this opportunity to present testimony to your Subcommittee 
regarding the irreversible damage currently occurring in the 
tundra ecosystem of North America by the mid-continent lesser 
snow goose. As you are aware, this valuable international 
resource, which provides habitats for hundreds of different 
wildlife species, is in great danger of depredation because of 
overpopulation of these geese.
    The mid-continent lesser snow goose is an Arctic-nesting 
waterfowl whose population has thrived in recent years as a 
result of increased agricultural and urban development and 
their ability to successfully exploit human modified 
landscapes. Whereas in most cases this would be viewed as 
successful wildlife management, in terms of the mid-continent 
lesser snow goose this emerging pattern has moved beyond 
desired levels to become an immediate threat to the very 
survival of this species.
    Since 1969, the mid-continent lesser snow goose has been 
steadily increasing at a rate of 5 percent a year from 900,000 
to more than 5,000,000 today. These geese forage by grubbing, 
or overturning soil, to reach the plant growth beneath the 
ground. This practice, coupled with the overpopulation, has 
caused severe environmental degradation to the Arctic 
ecosystem, almost rendering it useless for future plant growth. 
Fragile breeding grounds in Northern America, including the 
areas of Quebec, Ontario, Manitoba and parts of the Northwest 
Territories, have experienced irreparable damage to large areas 
of vegetation. Unlike most cases of wildlife population 
explosions where nature will balance species and habitat on its 
own, waiting for this to occur could be devastating. Current 
land-use practices have increased food supplies and reduced the 
winter mortality rate of these geese, thereby sending healthy 
birds back to breeding grounds where they continue to expand, 
destroying more and more of the North American tundra each 
season.
    This overpopulation also increases the potential for 
outbreaks of disease and could cause a decline in other species 
that nest in these regions. This includes semipalmated 
sandpipers, red-necked phalaropes, yellow rails, American 
wigeons, northern shovelers and a variety of passerines.
    The U.S. Fish and Wildlife Service has estimated that a 
decrease of one million geese, every year for the next several 
years, is what would be necessary to bring the mid-continent 
lesser snow goose population to one that is acceptable by 
wildlife managers. Taking this into consideration, the 
liberalization of many hunting frameworks is warranted. This 
includes modifying several current game-hunting regulations 
regarding baiting, electronic calls, concealment, bag limits 
and late-season expansion on and around state, provincial and 
Federal refuges. Additionally, an extension of the harvest of 
snow geese for southern hunters beyond the current restrictions 
(March 10) in the Migratory Bird Treaty should be considered as 
well. Though some conservation groups may consider these 
actions as severe, complacency can only be characterized as 
irresponsible.
    It is for this reason that I, along with my colleague Randy 
``Duke'' Cunningham, have introduced H.Con.Res. 175. This 
resolution expresses the sense of Congress that immediate 
action must be taken to address this growing problem. 
Specifically, H.Con.Res. 175 calls upon the U.S. Fish and 
Wildlife Service to utilize the most efficient conservation 
measures possible to reduce the population of mid-continent 
snow geese to levels that are consistent with sound biological 
management principles and, at the same time, prevent further 
destruction of the tundra ecosystem. This includes the 
development of a comprehensive management strategy, the 
liberalization of hunting frameworks and the modification of 
public land management practices. It is our firm belief that by 
taking these actions now, we can save the North American tundra 
and the mid-continent lesser snow geese for the future.
    Thank you again for allowing me the opportunity to testify 
today regarding these important matters.

    Mr. Gilchrest. Thank you, Mr. Hunter and Mr. Cunningham.
    I think the group that has been assembled to look at this 
problem, to sit down and exchange information on solutions, and 
have a tolerance for each other's opinions, can go a long way 
into not only solving the problem of the devastation in the 
tundra, but continuing to understand the balance of nature, how 
ecosystems work, and how we, through human activity, can, for 
the most part, have a positive impact instead of a negative 
impact. So I really appreciate your effort and your work on 
this.
    Duke?
    Mr. Cunningham. Thank you, Mr. Chairman, and I've given Mr. 
Farr the copy of the book that we entered into the record, but 
you can see just how devastating this has been to the 
ecosystem. The revenue from the additional permits to harvest 
these birds could be used for not only to save the land itself, 
it can be used--like, as I mentioned, as feed plots--it can be 
used to recondition the land and to even purchase other lands, 
which I think is very important also.
    On a personal note, I don't know if the chairman's aware a 
good friend of yours, Joe Judge, in which these Canadians 
affect the crops on the Eastern Shore of Maryland, has been 
diagnosed with cancer.
    Mr. Gilchrest. Joe?
    Mr. Cunningham. Joe is undergoing chemo and radiation 
treatment. He is a good friend of yours as well as ours, and I 
didn't know if you were aware of that.
    Mr. Gilchrest. No, I wasn't. Thanks, Duke, for telling me 
that.
    Mr. Farr, any questions for the witnesses?
    Mr. Farr. Yes, Mr. Chairman. Thank you. I notice in the 
resolved clause og H.Con.Res. 175, that it is the sense of 
Congress of the United States, that the Fish and Wildlife 
Service, together with its State flyway council partners should 
take action. Do those council partners include the Canadians? 
Are they in on this?
    Mr. Hunter. Yes, this is intended to take in the Canadians 
and the Mexicans, because Mexico, to some degree, hosts 
populations of snow geese. But primarily, our overall plan is 
intended to work with them, Mr. Farr. In terms of managing our 
conservation practices, however, whether we extend limits, 
whether we liberalize the hunting areas, or extend seasons, for 
example, that's something that we can't affect in Mexico and in 
Canada. In other words, they are working with Canadians and 
Mexicans right now, but in terms of us coming up with a 
conservation plan that we can oversee, it can only be done in 
the continental United States. That's where our jurisdiction 
is.
    Mr. Farr. As you know, I have no duck in this hunt. But the 
issue here, I think, is that the problem is a tundra problem, 
degradation of the tundra in Canada. And then you're suggesting 
that this selective reduction of the flock is the solution--
using more efficient technology, and including modification of 
management practices--which essentially we control on our 
ground in this country. It gets back to the issue of how much 
of the tundra is being damaged--and how you're really going to 
solve the tundra problem. If that is the problem, then where is 
the causal connection that----
    Mr. Hunter. Well, here----
    Mr. Farr. Needs to be there. The article you just gave me 
also says that weather has a lot to do with it. If you're going 
to allow more egg harvesting and collection, then maybe you 
don't have to reduce by hunting. Also, do the revenues derived 
from this hunting go back into this effort, or do they stay 
with the States that sell the hunting license?
    Mr. Hunter. Well, here's what you have. First, the hunting 
license thing, we have a Federal duck stamp that you buy if 
you're a hunter. That Federal wildlife stamp was introduced 
back in the 1930's, and that goes to Federal wildlife projects. 
So we can have--so you have increased moneys that come back 
through the waterfowl stamp process, and the more people who 
are enjoying that sport, the more revenue you have.
    But my point is that the snow geese are a product, really, 
of the great grain harvests and grain planting in the United 
States in the Midwest. This is a mid-continent, lesser snow 
goose problem. The snow geese in my State in California come 
from the Wrangell Islands, and that's--they're a stable 
population right now. What has happened is that we have these 
enormous grain harvests right now, as a result of our 
agriculture practices. So these birds come back to the Hudson 
Bay, in another country, in incredibly good condition. You have 
very little winter mortality or spring mortality because they 
come back very big, very strong, very robust, because they've 
been eating prime American grain all the way down the flyway. 
As a result of that, they have big broods, and so you had this 
increase from what was considered the stable population in 1969 
of 900,000 snow geese, to over five million today.
    They've increased their numbers by 500 percent. So, while 
the effect is in another country, that is the total destruction 
of about 10 percent of the tundra around Hudson Bay to date--
and, we're afraid, permanent destruction--the cause is the 
great grain factories of the United States that send these 
birds back to their nesting ground in extremely robust 
condition, and the result of that is having big hatches.
    Now, the Canadians tell us they may have to start 
poisoning. They don't want to lose these nesting grounds 
either, they don't want to lose the tundra. And, once again, 
the tundra's not something that can be replaced somewhere else, 
like you can replace a marsh, or you can mitigate the 
destruction of wetlands. So the only way to take these birds in 
a way that they can be utilized, that is where the meat can be 
used, is by hunters and their families--I'm a hunter myself, 
it's a tradition in my family. On Thanksgiving dinner, for 
example, we'll often have all wild game. American families, and 
the chairman can vouch for this on the Eastern Shore, American 
families enjoy their wild game. Snow goose is good to eat, and, 
you know, it's as much a product of our grain fields in the 
Midwest as the geese, as the domestic geese and turkeys and 
ducks that we raise domestically. They're very good eating.
    What we can do is take these excess birds and have a 
program where if you come off of a refuge, and that refuge has 
taken, say, a thousand snow geese in a given period of time, 
they can have Food for the Hungry. Many sportsmen have food for 
the hungry programs, we have a number of them throughout the 
United States, where if you don't want to take back five or 10 
snow geese, if that's more than your family needs, you deposit 
with the Salvation Army or another entity these snow geese, and 
they help to feed hungry people. So we don't waste them. That's 
a lot better than poisoning them in the tundra.
    Mr. Farr. I don't think I disagree with a lot of the things 
you've said, but what the bill really speaks to is the tundra 
ecosystem problem.
    Mr. Hunter. Yes.
    Mr. Farr. But most of your statement addresses the need to 
increase the hunting of these geese. Can you tighten this bill? 
You told me just now, in your statement, that the problem 
wasn't a California problem. But the bill says that you could 
modify the management practices on public lands for any lesser 
snow goose. Is that what the name of these are?
    Mr. Hunter. The mid-continent doesn't exist in California. 
Ours are from the Wrangell Islands in California.
    Mr. Farr. But your bill doesn't speak to that.
    Mr. Hunter. Well, I mean, the only place where you're going 
to manage them is where you have the problems. I mean, what 
we're doing is we're urging Fish and Wildlife to develop a 
blueprint and execute the blueprint. And what Fish and Wildlife 
will tell you is there's about a dozen refuges in the Midwest 
that have enormous populations of snow geese during the 
migration--the winter migration. And if they develop a plan 
whereby they direct a refuge manager to harvest so many birds 
on that particular piece of land, and you have that as part of 
a bigger blueprint, then that will achieve an overall 
reduction.
    So the answer is, Sam, the way that you effect the 
reduction in the flock--there's only two ways that it can be 
done. One is to take the snow geese when they are--and increase 
the harvest, which right now is about, between 400 and 500,000 
birds a year, which is not enough. Increase that harvest to 
several million, and utilize the meat for people who like to 
eat it, which is a reasonable thing to do; or poison the 
nesting ground, which is what some Canadians are proposing. We 
think that's the most repugnant of alternatives, but if we 
don't do something, we're going to be in trouble.
    Mr. Farr. Your bill says, though, that you should use the 
most efficient technology. You might say that poisoning them is 
more efficient technology than hunting them, which, I don't 
think you want to do.
    Mr. Hunter. Well, you know, we put technologies--see, that 
addresses the Lower 48. I would--we're trying to give some 
discretion to Fish and Wildlife. But, I'll tell you, if Fish 
and Wildlife said, we're going to poison birds on refuges, let 
me tell you this is one Member who would be moving immediately 
to try to stop that. I think that would be terrible.
    Mr. Cunningham. Sam, one of the problems, if you use that 
technology, it may not be the most efficient, because you're 
going to poison birds besides just those that the other species 
that are there. And that's why we reject the Canadian plan.
    Mr. Farr. What I'm trying to do is tighten your bill so 
that it has more of causal connection. This is a general 
hearing on the bill and not a mark-up, isn't it?
    Mr. Gilchrest. A general hearing, Sam.
    Mr. Farr. OK, then----
    Mr. Cunningham. Listen, we're willing to hear all kinds of 
things, and I think the bottom line is if we affect the 
population in the United States, and in Mexico, when they do go 
back up to the tundra, that there's lesser numbers to 
proliferate the tundra up there.
    Mr. Farr. I've always supported game management. I think 
we've done it well in California, in big horn sheep. There were 
battles in the State legislature when I served there, and we 
always tried to make it, you know, practical management. In 
California, the State you're both from, we don't do these 
trophy fees, because our State constitution says that the game 
belongs to everyone. So you can't, for example, auction off a 
hunt for very high fees, which other States have been able to 
do. I don't know whether that's good or bad.
    I think the more revenue you can turn back into the whole 
fish and game management system the better. I'm not a hunter, 
but I support the duck stamp program. Do you want to bring that 
revenue back into it?
    Mr. Cunningham. Oh, yes.
    Mr. Farr. Are you sure that this is tight enough to do what 
you want to do?
    Mr. Cunningham. Yes, yes, we are, and that revenue is used 
even today. This just increases the revenue for ecosystem 
management and good conservation practice. Another question you 
had when we spoke up there is, how do you know, first of all, 
in say the Salton Sea, I'm not going to be shooting this kind 
of goose, because it's not there. I do know a story--matter of 
fact, I was on the Eastern Shore with my friend the chairman, 
and a gentleman walked up to the game warden, and he had a 
goose whose neck hung clear to the ground. Well, it wasn't a 
goose, it was a swan, which is totally illegal.
    Another area was in the California newspapers, the 
gentleman asked the ranger, said, if I catch a deer, can I keep 
it? Well, of course, they laughed and said, yes, if you catch a 
mule deer, we'll let you keep it. Well, they went out to the 
truck, and this guy had stolen some farmer's goat, thought it 
was a deer. I mean that problem, you're never going to get rid 
of, but most of the people who hunt are aware of the actual 
species, and these, you know, are very difficult birds to hunt, 
and they're in specific areas, so it makes it much easier to 
have a management plan.
    Mr. Hunter. Sam, also, I understand what you're trying to 
do, and that's to put some specifics in this thing that make it 
tighter. What we intended to do here was to, because we think 
the Fish and Wildlife are fairly efficient and effective in 
their business, was to given them broad discretion. But 
certainly what I intended when we put in this language 
technological capability was things like, for example, these 
noise machines that would scare the geese if they were 
congregated in a particular area and you couldn't harvest them. 
Fish and Wildlife could go in and put in some type of 
noisemakers that would disperse them so that they could be 
harvested. But certainly I didn't contemplate poisoning.
    My point is that it's your bill now, and if you folks think 
that specific directions are in order to Fish and Wildlife, 
we're certainly in accord with that. This is going to take a 
lot of common sense, Sam. I think with our Fish and Wildlife 
experts here in Washington sitting down and listening, I think 
they need to listen to the wildlife managers throughout the 
Midwest, and kind of ask them their opinion. How many birds 
should we take per refuge, how do we best get the story out to 
the farmers, what kind of program do we have to make sure no 
meat is wasted, and do that type of thing.
    And U.S. Fish & Wildlife were consulted, my staff reminded 
me, we talked with them a lot before we put this together. They 
wanted a broad brush, broad mandate, if you will. And, as you 
know, we do that sometimes with agencies we really trust. Other 
agencies, we write everything down in the fine print. And I've 
always thought of Fish and Wildlife as an agency that has quite 
a bit of common sense and can figure this out if they come to 
the conclusion that Congress has a mandate to reduce these 
populations, and that we're behind them.
    But if you think, if the Committee in its wisdom thinks 
that more detail is needed, and specific direction is needed, 
we're not adverse--we're not against that.
    Mr. Cunningham. One other thing I'd say to my colleague, 
Mr. Farr. There's a provision, or one of the recommendations I 
totally disagree with, and it's more practical than anything. 
And that's to increase the number of shells you can hold in the 
magazine. Right now, almost any wild birds you hunt, you can 
only carry three shells. You have to have a plug in your 
shotgun, unless you've got an over-and-under, which you only 
carry two, or a side-by-side shotgun.
    The practical reason is I know that quite often when you're 
hunting snow geese, there are other geese or other birds. You 
can hunt ducks, for example. Which says you can only have three 
shells in your gun. If you've got somebody next to you that's 
got ducks in the blind, and you've got somebody that's got snow 
geese in the blind, a game warden can come up and say, hey 
look, and fine the guy that doesn't have three shells in the 
chamber. I see a problem there, or even taking your shotgun 
hunting goose one day, and going out and shooting quail or 
something the next day, and forgetting to put the plug back in 
your gun. I think you're going to have excessive violations 
because of that, and not what this intended for. So there's 
different areas in there I think we can tighten up.
    Mr. Gilchrest. Thank you, Mr. Farr. Gentlemen, I appreciate 
your testimony.
    I'm just going to make one quick statement that I've read 
that might help Mr. Farr out a little bit as far as the 
process, and how we work with the Canadians.
    The Canadian ambassador to the United States, I'm not sure 
if I'm going to pronounce the name right, Raymond Chretien. 
I'll just read two of many statements. ``Some of the more 
extreme ideas, such as the use of chemicals delivered into 
breeding colonies by aircraft are clearly unacceptable. From 
considerations of humaneness, damage to non-target species, and 
ineffectiveness of the use of the chemicals.'' And then he goes 
on to describe some of the more traditional ways of reducing or 
managing this particular type of wildlife.
    I think there's been a number of suggestions made here 
today, or at least some comments have been made here today 
about the management of this huge volume of snow geese. But 
what I see coming out of, at least the United States and 
Canada, and I'm sure Mexico as well, are those kinds of 
traditional ways to manage a flock, manage wildlife, while 
protecting the other species, and also protecting the ecosystem 
in general. So I think we're moving along pretty well.
    And, gentlemen, thank you very much for coming this 
afternoon. Mr. Hunter and Mr. Cunningham, you're welcome any 
time in Kennedyville.
    Mr. Cunningham. Thank you, Mr. Chairman.
    Mr. Hunter. Thank you very much, Mr. Chairman. Is the canoe 
still in the loft?
    Mr. Gilchrest. The canoe is still there, Duncan, it's right 
down there.
    Mr. Hunter. OK.
    Mr. Gilchrest. You just beware of the beaver.
    [Laughter.]
    Mr. Hunter. OK.
    Mr. Gilchrest. The next panel will be Mr. Paul Schmidt, 
Chief, Office of Migratory Bird Management, U.S. Fish and 
Wildlife Service; Dr. Rollin Sparrowe, President, Wildlife 
Management Institute; Dr. Bruce Batt, Chairman, Arctic Goose 
Habitat Working Group and Chief Biologist, Ducks Unlimited; Mr. 
Roger Holmes, Chairman, Migratory Wildlife Committee and Vice 
President, International Association of Fish and Wildlife 
Agencies; he's accompanied by Mr. Richard Bishop, Chief, Bureau 
of Wildlife, Iowa Department of Natural Resources; Dr. Frank 
Gill, Senior Vice President, Science, National Audubon Society.
    Gentlemen, I appreciate your attendance here this 
afternoon. I would ask the indulgence of the witnesses if Dr. 
Rollin Sparrowe may go first with his testimony, because he has 
to leave at three to catch an airplane. Dr. Sparrowe.

 STATEMENT OF ROLLIN SPARROWE, PRESIDENT, WILDLIFE MANAGEMENT 
                           INSTITUTE

    Mr. Sparrowe. Thank you, Mr. Chairman. The Arctic nesting 
goose stakeholders committee is a distinct group from the 
working group that filed the major report that you were 
discussing earlier. My primary role in testifying today is to 
clarify the nature of that group and its deliberations, and its 
contributions. I have included the report of that stakeholders 
group as a part of my testimony for the record. It includes, I 
think, some interesting perspectives from a wide array of 
participants.
    I want to point out that this was not an official group 
representing any entity. Because this issue became one of 
considerable interest, I asked a group of people to come 
together on an international basis to discuss it at some 
length. Our Institute often serves as kind of a gathering place 
for discussing issues such as this. Participation was 
voluntary; the expenses were paid by each of the participants; 
and while not everyone who was asked to participate did, nor 
did we ask every group across both Canada and the United 
States, we had a wide array of interest groups directly 
involved. We communicated with many others by issuing drafts 
and our final report. I believe the participants included a 
very wide array of viewpoints, and that everyone had a 
considerable opportunity to look at the information base and 
respond to it.
    The basic information used by the participants included the 
report, ``Arctic Ecosystems in Peril, a Report of the Arctic 
Goose Habitat Working Group.'' But, probably more importantly, 
the working group, the stakeholders committee, had access to 
all of the experts, key scientists from both the United States 
and Canada, on several occasions to hear detailed briefings 
about the substance in the basic reports and research findings, 
and to ask any questions and have interchange as they wished. 
We provided extra evening briefings for those who caught up 
with us late in some of the meetings, so that everyone was on 
an equal basis of information.
    This included the Fish and Wildlife Service, the Canadian 
Wildlife Service, the Animal Damage Control people from USDA, 
representatives from three of the flyway councils, the American 
Museum of Natural History, Ducks Unlimited, and any other 
organizations.
    I think it's important to note that the stakeholders 
committee didn't treat this as a hunting issue. This is an 
issue of a wildlife population grown beyond the capacity of its 
habitat. The information we saw in reports and was presented to 
us by the various experts generally convinced this stakeholders 
committee that there is a serious problem that requires 
direction action that should begin now.
    The group concluded that the degradation of habitats around 
Hudson Bay is well documented, and affects not only geese, but 
many other species. They called for a long-term plan that 
includes both habitat measures on migration and wintering 
routes, as well as attention to the size of the population. In 
general, the stakeholders group endorsed the intent of the 
larger working group report, to make a sizable reduction in the 
population as a major part of the management activity. At the 
same time, there are habitat management plans being drafted for 
work on migration and wintering areas, and I'm sure that you 
will hear about those in testimony from others on this panel.
    Hunting was recognized as one of the most cost-effective 
tools available to managers, if employed in concert with other 
actions. While there were some specific actions about hunting 
practices which were recommended for consideration and are in 
the report that I have filed as part of my testimony, all of 
those actions would occur only through legal, public processes, 
and the stakeholders groups, each organization, reserved the 
right to look at any specific action proposed by the agencies 
and respond to it.
    Finally, the key question asked in the invitation to speak 
was ``why not allow nature to take its course?'' On balance, 
the stakeholders committee found that this indeed is not a 
naturally occurring problem, and they felt that allowing lesser 
snow geese to continue to expand unchecked and literally eat 
their breeding habitat, and then presumably die off in large 
numbers, would be irresponsible. Many experts believe long-term 
habitat damage would likely be so severe that natural recovery 
could not occur.
    While hunting programs are not guaranteed to solve the 
whole problem, they have been the key to reducing or building 
other goose flocks in America. They address adult survival 
directly, which is a key biological and management fact. Mr. 
Chairman, the stakeholders committee will likely reconvene in 
the future to examine progress. A continued involvement by a 
wide array of groups seems to be a healthy thing to watch this 
very difficult management problem evolve. Thank you.
    Mr. Gilchrest. Thank you, Dr. Sparrowe. It's five to three, 
so at any time if you wanted to, we appreciate your testimony, 
but we don't want you to miss your plane.
    Mr. Sparrowe. Thank you.
    [The prepared statement of Mr. Sparrowe may be found at end 
of hearing.]
    Mr. Gilchrest. Mr. Paul Schmidt.

  STATEMENT OF PAUL SCHMIDT, CHIEF, OFFICE OF MIGRATORY BIRD 
           MANAGEMENT, U.S. FISH AND WILDLIFE SERVICE

    Mr. Schmidt. Good afternoon, Mr. Chairman, and thank you 
for your support in this conservation effort, as well as 
others. Today, I'm, as you indicated, I'm chief of the 
migratory bird management program for the Fish and Wildlife 
Service, and here to talk about the challenge we have in front 
of us.
    North American geese are a natural resource, as you know, 
of enormous economic and social value. In fact, migratory game 
bird hunting alone, economic activity is over four billion 
dollars annually. And that doesn't include the billions more 
contributed to local and regional economies from birdwatchers 
and other non-consumptive use.
    But the challenges we face in the management of over twenty 
populations of geese are fairly significant these days. And, in 
fact, we have a case of--in some cases too many, and in some 
cases too few. The overabundance of this mid-continent lesser 
Canada snow goose is one of the more critical challenges we 
face. That population, as you're aware, has increased 
substantially since 1969 to now between four and a half and six 
million birds. The Service believes that the snow goose 
population has exceeded the carrying capacity of its breeding 
habitat, and the population must be reduced the avoid the long-
term consequences that we're already seeing. That includes 
impacts to other species and the ecosystem in general.
    An indicator of the degradation is a narrow strip of 1,200 
miles of prime nesting habitat along the west Hudson Bay. Of 
this 135,000 acres, 47,000 acres are considered destroyed, 
41,000 damaged, and 47,000 heavily grazed. Other Arctic 
habitats may be suffering the same fate, as existing snow geese 
colonies expand and new colonies are established.
    The Service believes that population control by hunters 
should be considered before using more direct control measures, 
such as trapping and culling commercial harvest, and other 
methods. These more direct control methods may be necessary, 
but should be only considered after it's been proven that these 
changes to the migratory bird regulations have not been 
successful. These direct control measures are highly 
controversial and costly.
    The Service has been trying to stabilize the growth of this 
population for some time. Back several years ago, the Service 
increased the bag limit on snow geese in the mid-continent area 
to 10 birds, expanded the season to 107 days. Although the 
harvest has not increased sufficiently to reduce the population 
growth rate, the Service believes that this management tool 
still has the potential to be effective if it's aggressively 
expanded. The Service believes this management intervention is 
necessary and a credible alternative.
    Without that, we're going to continue to see degradation of 
the habitat and other wildlife species affected. Research has 
already shown the decline of other bird populations in some of 
these badly degraded areas. It's possible that the snow goose 
population itself could have a crash and go down to extremely 
low levels in the future.
    During the last year, we've been in significant 
consultations with our U.S. and Canadian partners in the States 
and Federal agencies, and discussing with also non-governmental 
experts. We've been developing regional action plans, and an 
evaluation and monitoring program that would be helpful to 
monitor our progress in reaching the goal of a reduced 
population.
    Our work to document the problem, and in consultation with 
stakeholders, combined with the recent media attention, has 
created an environment where the need for responsible 
management action is recognized, both within the conservation 
community and the general public. On April the 6th, the Service 
published a notice of intent, announcing our plans to prepare 
an environmental assessment to review migratory bird 
regulations with the intent of reducing the snow goose 
population. In this assessment, we are considering strategies 
to implement population control measures to increase the take 
of snow geese outside of the normal season. The Service will 
have a draft environmental assessment and a proposed rule 
available later this summer, and our goal is to have a final 
rule published in January, 1999. If those final regulations are 
approved in early 1999, this population control measure would 
be in place for the spring, before the geese return to the 
Arctic.
    In closing, I'd like to put this in a little larger 
context. Some of you have already mentioned this. We face some 
significant challenges in goose management throughout the 
country. While we're focusing today on snow geese, other goose 
populations are increasing at rapid rates as well, including 
the resident Canada geese that are mentioned along the east 
coast and throughout many parts of the United States, and the 
greater snow goose along the Atlantic flyway. On the other 
hand, a number of populations--the dusky Canada goose in the 
Pacific flyway, the Atlantic population of Canada geese, and 
the threatened Aleutian Canada geese--require careful 
management to protect and/or restore these populations.
    Given the reality of limited personnel and funding, and the 
increased complexities I've mentioned, we have never faced 
bigger challenges in goose management than we do today. But the 
Service is committed to working with our State wildlife 
partners, the Canadian wildlife authorities, and the 
stakeholders to address the critical issue of the overabundance 
of lesser snow geese.
    At this point, I'd just like to thank you again for the 
opportunity to testify, and to answer any questions you might 
have.
    [The prepared statement of Mr. Schmidt may be found at end 
of hearing.]
    Mr. Gilchrest. Thank you, Mr. Schmidt.
    Dr. Bruce Batt.

STATEMENT OF BRUCE BATT, CHAIRMAN, ARCTIC GOOSE HABITAT WORKING 
        GROUP AND CHIEF BIOLOGIST, DUCKS UNLIMITED, INC.

    Mr. Batt. Thank you. Good afternoon, Mr. Chairman and 
members of the Subcommittee. My name is Bruce Batt. I'm the 
chief biologist of Ducks Unlimited, headquartered in Memphis, 
Tennessee.
    For the past two years, I have served as the chairman of 
the Arctic Goose Habitat Working Group, which was formed to 
examine the issue of overabundant mid-continent lesser snow 
geese. The working group consisted of 17 scientists, water fowl 
managers, and academics who came together to examine all the 
information that was available on the status of the snow goose 
and the ecological consequences of their rapidly expanding 
population.
    We completed our report, which you heard about today, 
entitled Arctic Ecosystems in Peril in October, 1996 and 
published it for general release in February 1997. The title of 
the report was coined after we completed our work, and came to 
realize just how disastrous the extraordinary abundance of snow 
geese was to the Canadian Arctic breeding grounds around Hudson 
Bay. We concluded that the extraordinary population growth is 
being driven by several human-caused factors.
    The most significant is a tremendous expansion of 
agriculture through the mid-continent and Great Plains region 
of the continent. The abundant agricultural foods exploited by 
the geese on the Great Plains assure that year in and year out, 
more birds survive through the wintering period to go back 
north in excellent physical condition to breed than was likely 
ever the case in pre-settlement days.
    The second key factor was the establishment of many 
private, State, and Federal wildlife refuges, which are 
designed to protect migrant and resident wildlife. Refuges are 
at the heart of many of today's wildlife conservation 
practices, but snow geese have an uncanny ability to recognize 
and exploit refuges, and they have done so with gusto. Many 
refuges provide safety for hundreds of thousands of snow geese, 
where their most significant predator in modern times, the 
hunter, is excluded.
    A third factor related to the birds' use of refuges is 
their unequaled ability to recognize a hunting situation and 
successfully avoid it. After more than a decade of modifying 
hunting regulations to increase the harvest of snow geese, it 
is clear that with the traditional hunting methods and 
timeframes, hunters will not be able to arrest the persistent 
growth of the population.
    The last factor is a moderate change in the climate that 
has resulted in generally warmer temperatures and a longer ice-
free season in the summer, when the birds breed. This results 
in fewer unsuccessful breeding seasons that previously helped 
to check population growth.
    Their massive numbers put such a high demand on the limited 
food supplies that vast tracts of the Arctic have been 
converted to highly saline, bare soil where few plants can 
grow, virtually none of which are used by the geese. This is 
similar to ecological processes to what is occurring on vast 
tracts of the African continent, where desertification is 
causing the destruction of arable soils and the growth of the 
desert in that area.
    The destroyed marsh will take many decades to recover, at 
least most of the next century, and scientists are uncertain if 
some tracts will ever recover. More northern areas do not 
appear to be damaged as much yet, and population growth on the 
larger scale is probably fueled primarily by increases from 
those areas.
    But this is a bigger story than just the effects of the 
geese. This is an ecosystem in peril. All the other wildlife 
and plants that live in this ecosystem will also be decimated 
as it is destroyed. The migratory birds are the most 
spectacular and most abundant. All of them migrate through 
Canada and the United States between breeding and wintering 
areas. Many winter in Central and South America, and they are 
truly important treasures of the rich bird fauna shared by all 
the Americas.
    The working group recommended that this unnatural phenomena 
be arrested by strong goose-population reduction measures to 
bring the numbers to a level that can be sustained by their 
ecosystem. We projected that this would mean reducing the 
numbers by half, and we urged that this reduction would take 
place by the year 2005.
    It is not possible to be certain that a 50-percent 
reduction is needed, or that it is enough, as this problem has 
never been encountered before. Thus, we recommended that any 
population reduction program should be accompanied by an 
extensive monitoring system to measure the changes in the 
ecosystem so that the point at which the stable number was 
achieved would be recognized and the control measures would be 
stabilized.
    The Arctic Ecosystems in Peril report has been made 
available to the scientific community for their review for over 
a year now. It was a prominent topic at the largest ever 
gathering of the world's goose biologists last January in 
Victoria, Canada. It has survived this scientific scrutiny, 
with the only debate focusing on just how many geese will have 
to be removed from the population to establish a sustainable 
level. There is little disagreement in the scientific community 
about the causes of the problem, or the consequences of 
continued population growth on the ecosystem, on the geese 
themselves, or on other species that will suffer collateral 
damage.
    The snow goose crisis has been subject to hundreds of 
newspaper, magazine, radio, and television pieces. These have 
stirred virtually no negative responses from the public as to 
the importance of reducing numbers to a more sustainable level. 
Communications have been thorough, balanced, and accurate, and 
the message is scientifically defendable. In short, the 
scientific community and the public are well informed and well 
prepared to address this issue with a strong and asserted 
effort.
    As we have worked so diligently to change the face of North 
America to support our agricultural, urban, and rural 
enterprises, wildlife has responded in a variety of ways. Many 
species have been reduced in number and distribution, and we 
have come to grips with serious issues like endangered, 
threatened, and extinct species. The on-going commitment to 
those needs will assure many successes in the future. However, 
overabundant species are the other end of the continuum of how 
species respond to the new landscapes that we have crafted. 
They demand an equally effective commitment to their 
management.
    Thank you, sir.
    [The prepared statement of Mr. Batt may be found at end of 
hearing.]
    Mr. Gilchrest. Thank you, Mr. Batt.
    Mr. Roger Holmes.

    STATEMENT OF ROGER HOLMES, CHAIRMAN, MIGRATORY WILDLIFE 
  COMMITTEE, AND VICE PRESIDENT, INTERNATIONAL ASSOCIATION OF 
                   FISH AND WILDLIFE AGENCIES

    Mr. Holmes. Yes, thank you very much, Mr. Chairman, for the 
opportunity to share the perspectives of the International 
Association of Fish and Wildlife Agencies. I would point out 
that I am currently the vice president of the International, 
and I also have served as the chair of the International's 
Migratory Wildlife Committee for the last 8 years. I'm also the 
director of the Division of Fish and Wildlife for the 
Department of Natural Resources in the State of Minnesota, and 
prior to that served as the section chief and started out 40 
years ago as a water fowl habitat biologist with the State of 
Minnesota. During my tenure with the Minnesota department, I 
served on the Mississippi Flyway Council for 22 years.
    I'd like to point out particularly, in response to a 
question earlier, that the International Association is just 
what it says, an international agency that has in its 
membership all 50 States, plus all of the Canadian provinces, 
and also Mexico. So, as an international association, all three 
countries that have a piece of this problem have been involved 
in considering the solution, and it would certainly be our 
expectation that all three countries would be involved in any 
of the procedures or programs that could be implemented.
    I will skip over most of my testimony because other people 
have covered it. I would like to highlight a couple of things, 
however, and, as has already been commented on, there were 
several mentions of the report, Arctic Ecosystems in Peril. And 
I would only point out here that, of the working group members, 
six of those people were in fact representatives of Canada, so 
that the chair and the committee is aware of the fact that 
there has been a considerable amount of Canadian input into 
this issue, and particularly into this report.
    I would point out too that under recommendations, there are 
a number of recommendations that came out of this report that 
are in my testimony, and I want to highlight the first five.
    The first one is the United States and Canadian government 
should permit a conservation harvest of white geese between 
March 11 and August 31 where and when appropriate. And it says 
white geese----
    Mr. Gilchrest. Would you give those dates again, please?
    Mr. Holmes. Between March 11 and August 31. And any kind of 
a white goose. Any kind of harvest directed that these geese 
would involve not only the mid-continent snow geese, but also 
the greater snow geese, and probably include Ross' geese also. 
All three populations of which are at very high levels. And in 
a hunting situation, it's virtually impossible for hunters to 
distinguish between those different species, and all three of 
them would be harvested.
    The second recommendation is that subsistence harvest, 
including egging, should be encouraged in Canada, where 
appropriate.
    No. 3, the survival and productivity of lesser snow geese 
should be reduced through the appropriate management of public 
lands, including State, Federal, and provincial refuges and, 
where appropriate, on private land.
    No. 4, the U.S. Fish and Wildlife Service and Canadian 
Wildlife Service should consider allowing the use of electronic 
callers.
    Five, the U.S. Fish and Wildlife Service should consider 
increasing bag limits and possession limits.
    I'll read No. 6 too. The various governments are encouraged 
to develop mechanisms to facilitate snow goose hunting between 
jurisdictions.
    Also, commented upon earlier, was the fact that the U.S. 
Fish and Wildlife Service has published a notice of intent on 
April 6 regarding this issue, and the International strongly 
supports the statements that are made in that notice of intent.
    I want to address another issue here that has not come up 
yet, and that is that it must be recognized that there is a 
distinct lack of funding for goose management programs. The 
need for better biological data through monitoring programs, 
habitat management, and other forms of population management is 
increasing. The joint flyway councils have recommended a budget 
increase of approximately $10 million to adequately address 
goose population monitoring, management, and research needs.
    And, Mr. Chairman, the International did write a letter to 
the chair of the Interior Appropriations Committee, the 
Honorable Slade Gorton, and perhaps what I should do is provide 
you with a copy of that and enter it as a part of the record. 
It is dated March 30, and it was signed by our executive vice 
president, R. Max Peterson. And that specifically requests this 
$10 million--and I'd like to draw that to your attention, 
because a program like this does require funding, and the 
estimate that we have is it's going to take about $10 million 
to do the proper evaluation, the monitoring, and the habitat 
improvement and so forth to try to address this problem.
    Mr. Gilchrest. That's a letter from Senator Gorton?
    Mr. Holmes. It is to him----
    Mr. Gilchrest. To him.
    Mr. Holmes. From our International Association.
    Mr. Gilchrest. We'll enter that into the record.
    [The information referred to may be found at end of 
hearing.]
    Mr. Holmes. Then, Mr. Chairman, in conclusion, the 
Association firmly supports the recommendations contained in 
the Arctic goose stakeholders report, and I would urge the 
Subcommittee to support increased funding. As I've said, I 
would also like to point out that we have a person who's served 
on the stakeholders committee, and he's on the end of the table 
here, but his sign is right here, Mr. Richard Bishop. So if you 
get us confused, he's the chief of the Bureau of Wildlife from 
the State of Iowa. We've talked about mid-continent snow geese, 
and we are definitely from the mid-continent, and we're very 
concerned about that entire problem, and that's why we are 
here.
    Thank you very much.
    [The prepared statement of Mr. Holmes may be found at end 
of hearing.]
    Mr. Gilchrest. Thank you, Mr. Holmes. I guess you're about 
as mid-continent as you can get.
    Mr. Holmes. That's correct.
    Mr. Gilchrest. Dr. Frank Gill.

   STATEMENT OF FRANK GILL, SENIOR VICE PRESIDENT, SCIENCE, 
                    NATIONAL AUDUBON SOCIETY

    Dr. Gill. Thank you, Mr. Chairman. I appreciate this 
opportunity to appear before the Subcommittee to testify about 
the detrimental impact of the snow goose situation in the 
Arctic. I am the senior vice president and director of science 
of the National Audubon Society, and I am also the president of 
the American Ornithologists Union, the country's foremost 
society of professional ornithologists. With me is Miss 
Genevieve Thompson, the executive director of North Dakota's 
State office and, like Iowa, she's right on the front lines of 
the mid-continent problems.
    The National Audubon Society is one of the nation's leading 
environmental organizations. We have over half a million 
members organized in 520 chapters throughout the U.S. and 
Central America. Our members love and are concerned about 
birds, wildlife, and their habitats, and many of our members 
are sportsmen as well as birdwatchers.
    Audubon's involvement in the snow goose issue has included 
representation on the Arctic goose habitat working group, 
participation in the excursion to Hudson Bay lowlands 
coordinated by the joint venture management board, and 
representation in the stakeholders committee on Arctic nesting 
geese that you have just heard about. The National Audubon 
Society endorses the recommendations of the Arctic goose 
habitat working group, the international team mandated to 
document scientifically this urgent environmental problem.
    We are here today to publicly state the unanimous 
resolution of the board of directors of the National Audubon 
Society to protect wildlife habitat and ecosystems in the 
Arctic, and sub-Arctic, which are currently under threat from 
damage by the burgeoning populations of the lesser snow goose. 
The board voted in September 1997, last fall, to support the 
recommendations of the Arctic goose task force to reduce the 
mid-continent population of the lesser snow goose through 
expanded hunting and other means.
    Mr. Chairman, you have our written statement, which I won't 
repeat here. Let me just summarize, quickly, four main points. 
First, Audubon's concern in this situation is in line with our 
mission to protect birds, wildlife, and their habitat, using 
the best tools available. We view this as a habitat issue, not 
a hunting issue.
    Second, we are convinced of the reality, and the severity, 
of the problem, namely these geese are a major threat to a 
critical habitat on which many other species depend.
    Third, this is a problem of our own making. It's well 
documented. We understand what's happening. To some degree it 
was a conservation success, and we have to learn how to manage 
conservation successes. And, given that it is a problem of our 
own making, we have a responsibility to address and correct it 
as soon as possible.
    Finally, we look forward to working with government 
agencies and the sportsmen's groups to define all reasonable 
options, and to implement them as soon as possible to bring the 
system back into balance.
    Mr. Chairman, I thank you again for providing us with the 
opportunity to testify today. We are available to answer any 
questions you might have. Thank you.
    [The prepared statement of Dr. Gill may be found at end of 
hearing.]
    Mr. Gilchrest. Thank you, Dr. Gill. I think I'm going to 
start with Dr. Gill, and ask you to elaborate on your statement 
that this is a habitat problem, not a hunting problem. Do you 
have any specific recommendations on how--would you agree that 
the population needs to be reduced? What would your specific 
recommendations be to reduce that population? And does it 
include any increase in hunting at all?
    Dr. Gill. We are not opposed to hunting as a solution. In 
the Audubon family, there are issues about hunting versus non-
hunting, but in the board discussion about snow geese, it 
emerged that we're talking strictly about a habitat problem. 
Hunting is one of the tools we can use to solve that problem. 
So we are not opposed to the options under discussion as tools 
to solve a major habitat problem.
    Mr. Gilchrest. One of the recommendations from Mr. Holmes 
was to--and I don't know what I did with it up here in my 
mess--was to expand the hunting season, was to include the 
hunting season, or make March 11 through August 31 part of the 
hunting season, which, I suppose, would have to have the 
Migratory Bird Treaty Act changed. Would you agree that an 
expansion of any type or any length of the hunting season would 
be necessary to manage the snow goose population? Dr. Gill.
    Dr. Gill. I'm sorry. Could you repeat the last part of that 
question?
    Mr. Gilchrest. It's my understanding that part of the 
management of reducing the snow goose population, as 
recommended from the Audubon Society, is hunting. That's a part 
of a management tool. Would you agree with some of the 
recommendations, specifically with Mr. Holmes, that the hunting 
season should be expanded?
    Dr. Gill. Well, I'm in charge of science, not policy, so I 
may be getting myself into trouble here. But Audubon's position 
is that that would be a reasonable option.
    Mr. Gilchrest. It would be a reasonable option?
    Dr. Gill. Yes.
    Mr. Gilchrest. It's my understanding, I guess, Mr. Schmidt, 
that the Migratory Bird Treaty Act of 1918, in order to 
accommo-

date some of the changes that have been discussed here today, 
would have to be amended.
    Mr. Schmidt. Actually, it's likely it would not have to be 
amended. The Migratory Bird Treaty itself underwent an 
amendment process a couple of years ago and the U.S. Senate has 
endorsed that. We're waiting for final exchange of notes that 
would indeed--some of the amendments that were made would 
indeed open up the opportunity for us to take specific 
management actions on a conservation issue such as this one.
    Mr. Gilchrest. Where is that proposed change now, with the 
State Department?
    Mr. Schmidt. Yes, sir.
    Mr. Gilchrest. What are they likely to do with it?
    Mr. Schmidt. The next step is to exchange instruments of 
ratification with Canada and Mexico in our two bilateral 
treaties. We would expect that to be done in the near future, 
but I can't represent their timeframe on that.
    Mr. Gilchrest. What's that? Always a diplomat, that's good. 
Are you referring to me, or Mr. Schmidt?
    [Laughter.]
    Mr. Schmidt. That's the first time I've been called that 
before.
    Mr. Gilchrest. Well, you have a future outside of Fish and 
Wildlife.
    Any one of you can answer this question. Can you describe 
in some detail the long-term consequences of permanent habitat 
destruction of the tundra?
    Mr. Schmidt. The long-term, in terms of the Arctic, the 
damage that we have seen to date and documented by Dr. Batt's 
report would suggest that recovery of some areas may be longer 
than human lifetimes. As the studies were discussed by 
Congressman Hunter, there have been areas that have been 
excluded from goose use for up to 15 years, and virtually seen 
no regeneration of the tundra. And so we don't know how long it 
will take, but it's not like in the temperate areas that we're 
used to here, where recovery of habitats can be fairly quick, 
in a matter of years. I think we're looking at recovery of some 
of these area--if we can keep geese off of them--in terms of 
decades, and not years. So that's significant.
    Mr. Gilchrest. In those areas that have been destroyed, if 
the goose population can be kept out, is there any possibility 
of reseeding? Does that work up there?
    Mr. Schmidt. There are research efforts underway to look at 
that possibility through the use of artificial means, 
fertilization, et cetera. But it's a fairly costly exercise. 
Even if it becomes possible to do that, the expense associated 
with it would be tremendous, and we're talking about 100--
excuse me, 1,200 of coast land in a very isolated part of the 
world to try to regenerate that.
    Dr. Gill. Mr. Chairman, could I add to that?
    Mr. Gilchrest. Please do. Yes, sir.
    Dr. Gill. One of the threats, as I understand it, and these 
folks could correct me if I'm wrong, is that the grubbing far--
the way snow geese eat and rip up the roots of the grass--
allows salt to move into the system from below, and it changes 
the chemistry of the soil. Once the chemistry of the soil is 
changed, it allows and promotes the invasion of a salt-tolerant 
plant called Salicornia.

Once Salicornia has taken hold of these areas, it's there 
virtually forever, and hardly anything lives in Salicornia. It 
becomes a botanical desert, so there's a real transformation of 
the habitat.
    Mr. Gilchrest. Where does the salt come from? Is it because 
this tundra is near the Hudson Bay? Is the salt likely to have 
this happen in the interior, away from the bay?
    Dr. Gill. Bruce?
    Mr. Batt. These soils on the coast are all former marine 
soils, and they're heavily laden with salts. And when the geese 
tear off the turf, they take away the insulation of the turf, 
and it warms it up, and that causes the evaporation rates to 
increase dramatically. And when it evaporates, the salt is left 
behind. It's the same thing as a pan of water that evaporates 
away and leaves a little residue. Well, it's the same on the 
coast up there.
    And there's areas up there now that are two and three times 
sea-strength salt. That's how high they are. And not even 
salicornia grows there. Where salicornia grows, it's just--it's 
the only plant that can survive. Salicornia is 60 percent, by 
weight, salt, and nothing eats it. It has no nutritional value. 
It just happens to be something that can live there. So when it 
goes--but it can get too salty for salicornia also. And it 
eventually just becomes a big, baked mudflat that nothing grows 
on. And I guess, it's a bit of conjecture as to how long it 
takes to recover. If there were no geese, it's many decades 
into the future. Nobody's every been able to study this, no 
one's seen it, no one's lived long enough to witness this 
before, and we don't think it ever happened before.
    Mr. Gilchrest. Do any of you--would any of you, 
representing your various groups, recommend, under any 
circumstances, poisoning?
    Mr. Batt. We would not.
    Dr. Gill. No.
    Mr. Gilchrest. So, I--because it has been done in this 
country by Fish and Wildlife under certain, limited 
circumstances. So, can I assume that everybody up here, at 
least now, with the information that you have before you, you 
would not recommend poisoning?
    Mr. Schmidt. I would say, with the information we have now, 
that's very correct. We would like to consider all other 
options possible before taking such dramatic actions as you've 
suggested, and the Service firmly believes there are--that we 
can be successful in this effort if we work together, Canada, 
the United States, even Mexico, as has been mentioned, in some 
of other ways besides the unacceptable poisoning that you've 
mentioned.
    Mr. Gilchrest. Since this is predominantly a destructive 
problem in Canada, and I guess we don't have anybody here from 
Mexico, would the United States defer to Canada on the 
poisoning recommendation? Suppose Canada never recommended 
poison, suppose the United States felt, well, that the 
situation is so bad we may do it in North Dakota or Iowa or 
someplace. What would happen under those circumstances?
    Mr. Schmidt. Let me see if I understand. If we recommended 
poisoning----
    Mr. Gilchrest. And Canada didn't.
    Mr. Schmidt. Canada didn't? Well, we--each are, obviously, 
sovereign countries and can indeed implement things, but 
typically the way we have managed migratory birds in this 
continent has been through a coordinated effort using the 
flyway system that involves the States and Canada, in 
particular. And our counterparts, we're in consultation with 
them virtually on a weekly basis on this issue and others, and 
I can't foresee that we would be out of step down the road with 
our partners in the north.
    Mr. Gilchrest. Is the gathering of eggs in the springtime 
in the tundra--I know there's no silver bullet here, but is 
that a viable option to consider and to--and then how would you 
do that? Would you hire people to go out there and collect the 
eggs?
    Mr. Batt. It's viable. Its logistics are enormous. Not many 
goose colonies are near where people live, so the logistics and 
expense are enormous. If we--we did some calculations, and 
something like two million eggs would have to be taken each 
year to stabilize the population. It would not cause it to 
decline, and you'd have to do that year after year after year.
    Mr. Gilchrest. Given the gravity of the problem, would 
Canada or the United States consider a joint military exercise 
to go in there, without ammunition, and gather the eggs? And to 
see how--to test the endurance. Oftentimes, military people go 
out on 50-mile hikes, they go out on overnight camp overs, and 
things like that. You fly them in there and----
    Mr. Batt. Well, I don't personally find that unpalatable. I 
don't know if each government would go along with it. But it 
would take that scale of an effort. I mean, that scale of an 
expense to logistically support people in these remote, 
dangerous places. So it would take something like that.
    Mr. Gilchrest. Are there polar bears up there?
    Mr. Batt. Yes, plenty. I flew a thousand miles on the coast 
last August, and we counted 132 on that trip, and that was 
early in the year, so there's plenty of polar bears.
    Dr. Gill. My staff has just asked me to tell you that's a 
great idea, to mobilize the armed forces on this one.
    Mr. Gilchrest. I might re-enlist if that's the case.
    [Laughter.]
    Mr. Bishop. Mr. Chairman?
    Mr. Gilchrest. Yes?
    Mr. Bishop. Speaking from the Flyway Council's side, and a 
lot of the stakeholders in the discussions that have been going 
on for several years on this issue, I think that while there 
are several things that you've been talking about, by taking 
eggs and actually maybe reducing some of the geese on the 
particular colonies where some of those problems are existing, 
are definite options.
    But it is felt, and it was felt by the stakeholders 
meeting, by most all of the people participating, the 
utilization of the sporting opportunity that is generally 
socially acceptable at this point in time needs to be 
exhausted, and all opportunities at this time need to address 
these potential possibilities, utilizing our sporting people. 
Because if this is not done, there will be a major reaction 
from the sporting world against any action that those of us in 
the flyway councils, the Fish and Wildlife Service, Canadian 
Wildlife Service, anybody would take before other options are 
taken.
    Mr. Gilchrest. Understanding the sporting option, and 
everybody at the table apparently agrees with the sporting 
option, can we, whoever makes these recommendations, as we 
pursue aggressively the sporting option, is it also a 
consideration to pursue the gathering of eggs option at the 
same time?
    Mr. Bishop. The stakeholders meeting recognized that we 
should look at both lethal and non-lethal options at the same 
time. Yes, we have the recommendation that we should explore 
the--looking into this egg collection as part of a solution.
    Mr. Gilchrest. Is there anybody that can say with some 
assurance--and I'm not against the hunting option, and I think 
we ought to pursue the hunting option. Can you tell us, with 
the hunting option, the percentage of reduction of snow geese 
over a period of time.
    Mr. Bishop. Well, I'd like to speak to that, because back 
in the early, or the mid-1960's and late 1960's and early 
1970's, I was part of flyway program that worked from the 
Mississippi flyway with the central flyway, and we were trying 
to build these populations of snow geese.
    Mr. Gilchrest. You were trying to build them up?
    Mr. Bishop. Yes. We are partly responsible for this, as 
well as the agricultural changes in the Gulf Coast States of 
Texas and Louisiana, and our expansion of feed grains in the 
upper Midwest. But what we did is we helped build these closed 
areas and refuge areas for snow geese, primarily to increase 
their populations, because back in the late 1960's, there was a 
major concern from Louisiana and Texas that the midwest States 
were shooting too many geese, and holding them north too long, 
and the Canadians wanted to increase their harvest, and so we 
built this population in response to the request from people 
wanting to utilize this resource. The geese became older, and 
become very wise in their use of these refuge areas. They do 
not come down across the continent----
    Mr. Gilchrest. Well, I'm just going to--I'm going to 
interrupt you for just a second, because I have a vote and I 
have to run. And I understand what you're saying. We go through 
very similar things on the Eastern Shore with the rise and fall 
of the population of the Canada goose. We've seen a huge 
increase, and the difficulties of snow geese over there.
    So I think I understand the difficulty of trying to raise 
the population, then trying to manage the population. I guess 
what I'm asking is, with an agreement on expanding the hunting 
season, is there some sense as to the percentage of reduction 
of this snow goose population over a period of time?
    Mr. Bishop. I was getting to that, and I will address that. 
Yes, we feel that there is an opportunity. No one has the 
ability or knowledge though----
    Mr. Gilchrest. Can you come close to 50 percent?
    Mr. Bishop. We don't know that we could get to that, but we 
feel that we can reduce the survival rate of those birds. Back 
in the years past, we've had serious snow lingering in some of 
those colonies where we've had major busts of production north 
of the Manitoba border on some of those areas. So we feel that 
if we expand the hunting seasons in the spring, and also--and 
disrupt this concentration of birds in the fall, that we can 
push those birds back out to the many areas where hunters and 
sportsmen can get to it, where you're mortality rates will rise 
on the adult birds, but we're going to have to have an 
opportunity to see the geese respond to this hunting pressure. 
We can't give you an exact answer, but we think it will.
    Mr. Gilchrest. Thank you. I appreciate that. And we really 
need to carry this conversation on long beyond the point where 
we can today, and I look forward to hearing, I hope, from all 
of you once again before the bill is finally passed. And I hope 
that we can get together in a cooperative fashion to find some 
solution, as quickly as possible, to this problem. And thank 
you very much for traveling here to Washington.
    I just have to read a few things into the record. I'll ask 
unanimous consent--I don't think anyone in the room will 
object--to put into the record a statement by Don Young, a 
statement by John Tanner, the statement by the Canadian 
government, the Ambassador Raymond Chretien, two statements by 
the Ambassador, National Wildlife Federation, Mark Van Putten, 
the HSUS--Humane Society, entered into the record, John--I 
almost said this was Fred Grandy, but it's John Grandy, John 
Grandy.
    [The prepared statement of Mr. Young follows:]

  Statement of Hon. Don Young, a Representative in Congress from the 
                            State of Alaska

    I would like to compliment you for conducting this 
oversight hearing on the destruction of the Arctic tundra by an 
ever-increasing population of Lesser snow geese.
    Over the last 30 years, the number of Lesser snow geese has 
dramatically risen from 800,000 birds in 1969 to more than five 
million today. While they are fully protected under the 
Migratory Bird Treaty Act, this population explosion is causing 
serious problems. For instance, the geese's appetite for Arctic 
coastal tundra has created a strip of desert stretching 2,000 
miles along the Hudson Bay in Canada. These geese are literally 
eating themselves out of house and home and, in the process, 
destroying thousands of acres of essential nesting habitat. 
These wetlands are critical to the survival of not only snow 
geese but hundreds of other migratory birds including brants, 
black ducks, and mallards.
    With the population of Lesser snow geese increasing by 
about 5 percent each year, unless immediate steps are taken, 
the fragile, slow-recovering, cold Arctic tundra will continue 
to be destroyed.
    In response to this problem, representatives from the 
United States and Canada formed the Arctic Goose Habitat 
Working Group. This group carefully investigated the impact 
that Lesser snow geese are having on the tundra and issued a 
report entitled ``Aretie Ecosystems in Peril.''
    While there is no consensus on how to solve this 
overpopulation problem, suggestions include doing nothing, 
allowing the collection of goose eggs, or intentionally baiting 
snow geese to reduce their number.
    Clearly, this is a serious problem. It will not be solved 
in a matter of weeks and it will require a comprehensive 
management strategy. It is my hope that both our government and 
Canada will reject the ``let nature run its course'' option. 
Allowing the population to simply crash is a misguided approach 
that will have dire consequences for snow geese, other tundra 
inhabitants, and the coastal environment. As we wait for the 
crash to occur, thousands of additional acres of the Arctic 
tundra will be irreplaceably destroyed for generations. In 
addition, the U.S. Fish and Wildlife Service should not try to 
duplicate the disaster they created in Cape Cod, Massachusetts. 
It was a mistake to poison thousands of gulls, and this option 
should not be given any serious consideration.
    Finally, I look forward to hearing from our distinguished 
witnesses and I want to compliment our colleagues, Duncan 
Hunter and Duke Cunningham, for their leadership in proposing 
House Concurrent Resolution 175. This problem does cry out for 
a comprehensive management strategy to save the Arctic tundra 
from the ravaging appetites of Lesser snow geese.

    [The prepared statement of Mr. Tanner follows:]

Statement of Hon. John S. Tanner, a Representative in Congress from the 
                           State of Tennessee

    Chairman Saxton, Representative Abercrombie, Members of the 
Subcommittee on Fisheries Conservation, Wildlife and Oceans, I 
want to first thank you for your continued leadership in the 
conservation of our fish and wildlife resources. It is that 
leadership that brings us here today to examine the plight of 
the Mid-Continent Lesser Snow Goose and the work of the Arctic 
Goose Habitat Working Group.
    I look forward to hearing from my House colleagues; Paul 
Schmidt, chief of the U.S. Fish and Wildlife Service's Office 
of Migratory Bird Management; Ron McIntosh, counselor for 
environment and fisheries at the Canadian Embassy; Dr. Bruce 
Batt, Ducks Unlimited's chief biologist; Roger Holmes, director 
of the Minnesota Division of Fish and Wildlife and chairman of 
the IAFWA's Migratory Wildlife Committee; Rollin Sparrowe of 
the Wildlife Management Institute; and Dan Beard of the 
National Audubon Society.

The Problem

    Let's face it, the problem is staggering. Over the past 30 
years the population of Mid-Continent Lesser Snow Geese has 
exploded by more than 300 percent. Roughly 900,000 Mid-
Continent Lesser Snow Geese were recorded in surveys taken in 
1969. Today, many of the more than four million Mid-Continent 
Lesser Snow Geese are struggling to survive in the same arctic 
and sub-arctic breeding habitats that sustained only 900,000 
snow geese 30 years ago. Many biologists believe those breeding 
habitats are capable of sustaining fewer than two million snow 
geese today. The population of these snow geese is growing at 
an annual rate of 5 percent to 8 percent. Indeed, in 1968 when 
scientists began studying snow geese in the breeding grounds 
around La Perouse Bay there were 2,000 breeding pairs. Last 
year scientists found more than 40,000 pairs. Nesting colonies 
at Cape Henrietta Maria have exploded from roughly 2,000 pairs 
in 1960 to 225,000 pairs last year that had hatched more than 
one million goslings. That means trouble in the states where 
these birds winter. State waterfowl managers in Arkansas, 
Mississippi, Louisiana, Texas, and Oklahoma are facing more 
severe problems in the southern regions of the Mississippi and 
Central Flyways where snow goose numbers have more than doubled 
in the last five years alone.
    Equally stunning, of the 1,200 mile coastline of Hudson Bay 
and the Southern James Bay, more than 30 percent of the 
original habitat is considered destroyed, another 30 percent is 
severely imperiled and the remainder is overgrazed. These geese 
have eaten themselves into crisis.
    As Duck Unlimited's chief biologist Dr. Bruce Batt wrote 
earlier this year, ``When we first surveyed Cape Henrietta 
Maria by helicopter, we were surprised to see only a handful of 
family groups of snow geese, knowing that more than 225,000 
breeding pairs had hatched more than one million goslings there 
just eight weeks ago. The reason for the birds absence, 
however, was soon readily apparent from the air.
    ``Vast expanses of tundra in and around the nesting colony 
resembled a moonscape after years of intensive feeding by 
hordes of geese. The hungry birds had denuded most of the 
vegetation from the landscape, forcing adult birds and their 
hatchlings to wander down the coastline in search of food.''
    Mid-Continent Lesser Snow Geese breed in the arctic and 
sub-arctic regions of Canada primarily the western coasts of 
the Hudson Bay and the southern James Bay as well as the Baffin 
and South Hampton Islands. Beginning in August these snow geese 
begin their migration south over the Canadian boreal forests 
and along the Central Flyway corridor and the Mississippi 
Flyway corridor to their wintering grounds in Mississippi, 
Arkansas, Louisiana, Texas, and Oklahoma.
    Many waterfowl managers believe the virtually unlimited 
food source provided by many farmers in the Mississippi and 
Central Flyway states is part of the reason for the sustained 
growth rates these geese are experiencing. The available 
breeding habitats can no longer sustain the present population 
and that raises a number of threats to both these snow geese 
and other migratory birds that include the spread of avian 
cholera and increasing salinity levels in the soil because of 
the removal of virtually all of the tundra's protective turf by 
an over-abundance of snow geese.

The Arctic Goose Habitat Working Group

    The Arctic Goose Joint Venture, which is one of the Joint 
Ventures formed to implement the goals of the North American 
Waterfowl Management Plan, put together the Arctic Goose 
Habitat Working Group in 1996 to address booming snow goose 
populations and the resulting degradation of prime breeding 
ground habitat.
    Last year, the Working Group produced a series of 
recommendations that will hopefully take a significant step 
towards solving the pressing habitat issues facing Canada and 
the United States.
        <bullet> Remove existing hunting restrictions on techniques 
        including the use of electronic calls, baiting, and the 
        practice of creeping.
        <bullet> Permit snow goose hunting beyond the March 10 closing 
        date.
        <bullet> Encourage native hunters to increase subsistence 
        harvests of eggs and adult birds.
        <bullet> Expand hunting opportunities on some National Wildlife 
        Refuges in an effort to help disperse the geese from typically 
        protected areas.
        <bullet> Work with waterfowlers and land owners to improve 
        access to private lands.
        <bullet> Encourage state wildlife agencies to develop 
        reciprocal agreements among the states to exempt nonresident 
        waterfowlers from purchasing multiple licenses to hunt snow 
        geese.
        <bullet> And finally, remove or greatly expand current bag and 
        possession limits.
    The recommendation to reduce the lesser snow goose population by 
half has been endorsed by the U.S. Fish and Wildlife Service, its 
Canadian counterpart, the state fish and wildlife agencies, Ducks 
Unlimited, the Ornithological Council, the Wildlife Management 
Institute, the Arctic Geese Stakeholders Committee, the National 
Wildlife Federation, and the National Audubon Society. Consideration of 
the Working Group's recommendations is advocated by many of these same 
organizations. Many believe those recommendations represent a good 
first step, but we need to begin planning for the possibility these 
recommendations alone may not be enough. American and Canadian hunters 
harvest an average of roughly 400,000 snow geese each year proof enough 
that these crafty birds are difficult to hunt.

The Future

    Like many who have been working on this issue for much longer than 
me, I don't believe the solution to this problem now or in the future 
will be a simple one. But I do believe we need to take several steps to 
prepare for the long-term management of the Mid-Continent Lesser Snow 
Goose population at sustainable levels in an effort to restore these 
critical habitats.
    First, the U.S. Fish and Wildlife Service should begin, if it 
hasn't already, to identify what future steps or options should be 
formulated for consideration in the event the Working Group's 
recommendations do not achieve the needed goals to sustain both the 
snow geese and the available habitat. This process needs to be an 
adaptive process that leaves Federal, provincial, and state waterfowl 
managers, working in concert with those in the conservation community, 
the flexibility to manage this problem and adapt to changes in the 
nature of the goose population and its habitats as required.
    The Joint Flyway Council has recommended a $10 million increase to 
allow the Service to better address with its partners goose population 
monitoring, management and research needs. This recommendation is 
supported by the International Association of Fish and Wildlife 
Agencies. I believe the Joint Flyway Council's recommendation is the 
direction we need to be moving if we are ultimately going to solve this 
problem and begin restoring critical parts of this imperiled arctic 
ecosystem. The bottom line is that we need to take the advice, 
experience, and recommendations of state, Federal, and provincial 
waterfowl management experts not-to-mention those in private 
conservation organizations and work within the constraints of a 
balanced Federal budget to give these professionals the resources and 
tools they need to adequately meet the challenges facing lesser snow 
geese on the breeding grounds of the arctic tundra.

The Cost Of Doing Nothing

    The cost of doing too little or nothing at all will be excruciating 
if not irresponsible. The Mid-Continent Lesser Snow Geese have now 
become the most serious threat to their own existence in the view of 
many. Their destruction of these prime habitats are threatening the 
existence of many other species of migratory birds including shorebirds 
and songbirds. Specifically, puddle ducks like the American wigeon and 
shovelers no longer use the freshwater wetlands in and around the 
colony, according to experts like Dr. Batt. They are finding that many 
non-game migratory birds like the stilt sandpiper in the arctic and 
subarctic habitats are declining in numbers because of the extreme 
habitat degradation brought about by the abundance of these snow geese.
    Again, Dr. Batt recently wrote, ``One persistent argument to 
managing snow geese populations via harvest is that nature should be 
allowed to take care of the problem. That will happen, of course, if 
managers don't intervene. Choosing that path, however, will result in 
the destruction of remaining gosling feeding areas.
    ``Unfortunately, the adult geese will not stop laying eggs each 
spring because of a lack of habitat. The birds will continue to return 
from the southern agricultural areas fat, healthy, and ready to nest, 
and the birds are capable of storing enough nutrients to successfully 
hatch their broods with little supplemental feeding. As a result, the 
unhappy saga of starving goslings will be repeated year after year.''
    The problems facing these snow geese and the degradation of their 
breeding ground and wintering habitats require vigilance on the part of 
our waterfowl and migratory bird managers as well as those partners in 
the Arctic Goose Joint Venture, participants in the Working Group, and 
those in the private sector.
    Doing nothing is neither a scientifically viable, nor acceptably 
responsible solution.
    Again, thank you Mr. Chairman, Representative Abercrombie, Members 
of the Subcommittee, and those who have been working on this problem 
through the Working Group for working together to achieve the kind of 
consensus that will allow us to effectively solve the problem in a way 
that benefits both the snow goose and its habitat.

    [The prepared statement of Ambassador Chretien may be found 
at end of hearing.]
    [The prepared statement of Mr. Van Putten may be found at 
end of hearing.]
    [The prepared statement of Mr. Grandy may be found at end 
of hearing.]
    Mr. Gilchrest. And there was one other little item that I 
forgot to do here, and if I can't find it, I guess the world 
won't come to an end. Well, I ask unanimous consent that any 
member on this Committee has five legislative days to submit in 
writing something to put into the record for the Committee.
    Thank you gentlemen very much. The hearing's adjourned.
    [Whereupon, at 3:35 p.m., the subcommittee adjourned 
subject to the call of the Chair.]
    [Additional material submitted for the record follows.]
  Statement of Paul R. Schmidt, Chief of the Office of Migratory Bird 
 Management, U.S. Fish and Wildlife Service, Department of The Interior

    Good afternoon, Mr. Chairman and members of the 
Subcommittee. I am Paul Schmidt, Chief of the of Office of 
Migratory Bird Management, United States Fish and Wildlife 
Service. Thank you for the opportunity to appear today to 
discuss the Service's position regarding the ecological 
problems associated with Mid-continent lesser snow geese.

Background:

    North American geese are a natural resource of enormous 
economic and social value to both hunters and birdwatchers 
throughout the United States. Migratory bird hunting, including 
goose hunting, generates about $4 billion of economic activity, 
and millions of people further enhance local and regional 
economies as they view geese throughout the year. Management of 
this diverse and widely distributed resource is becoming 
increasingly complex. The management challenges include dealing 
with both overabundant goose populations that are destroying 
fragile arctic ecosystems or causing significant economic 
losses on agricultural lands; and dealing with some goose 
populations that are declining. These declines have 
occasionally resulted in the closure of hunting seasons, and in 
some cases increased the likelihood of their listing under the 
Endangered Species Act. The overabundance of Mid-continent 
lesser snow geese is one of the more critical challenges we 
face.
    Mid-continent lesser snow geese (Anser caerulescens 
caerulescens), hereinafter referred to as snow geese, breed in 
the subarctic and arctic regions of Canada, primarily along the 
south and west coasts of Hudson Bay and the southern portions 
of Southampton and Baffin islands. Snow geese migrate southward 
in the fall through the Central and Mississippi Flyways. 
Historically, snow geese wintered primarily in the coastal 
areas of Texas and Louisiana; however, today their winter range 
spans across Texas, Louisiana, Oklahoma, Arkansas, and the 
central highlands of Mexico.
    The snow goose population has grown more than 300 percent 
over the last 30 years, from 900,000 birds in 1969 to between 
4.5-6 million birds today. The rapid growth of the population 
has been primarily attributed to the expansion of agriculture 
along the Central and Mississippi Flyways, low mortality, and 
increased winter survival. During the 1950s, industrial, 
agricultural, and urban expansion along the Gulf Coast 
contributed to a wide-spread decline in salt marsh-habitat and, 
at that time, snow goose numbers were constrained in part by 
limited suitable winter habitat and low overt survival. In 
spite of the establishment of refuges and other sanctuaries 
along the Gulf Coast to protect such habitats, snow geese 
expanded their feeding range during the winter into the 
adjacent rice prairies, where high energy food resources were 
abundant. As a result, the snow goose population grew with the 
expansion of the rice industry. Further north, snow geese were 
quick to utilize the increasing acreages of high energy cereal 
grain crops throughout the Midwest, assuring that the birds 
always arrived on their breeding grounds in prime condition to 
breed.
    Today, there are approximately 2.25 million acres of rice 
fields in Texas, Louisiana, and Arkansas, in addition to the 
millions of acres of cereal grain crops in the Midwest. 
Consequently, food availability and other habitat requirements 
are not limiting snow geese during the migration and wintering 
portions of the annual cycle. Conversely, suitable breeding 
habitat in the arctic tundra is diminishing due to the effects 
of escalating snow goose numbers and will continue to decline 
if the population is not soon reduced. The Service believes 
that the snow goose population has already exceeded the 
carrying capacity of its breeding habitat and that the 
population must be reduced to avoid long-term consequences to 
an ecosystem important to many other wildlife species, in 
addition to snow geese.
    In 1996, the Arctic Goose Habitat Working Group of the 
Arctic Goose Joint Venture documented the ecological problems 
associated with overabundant goose populations in the 
publication Arctic Ecosystems Peril: Report of the Arctic Goose 
Habitat Working Group. The report emphasizes the need for 
action and encourages Canadian and United States wildlife 
agencies to take immediate steps to reduce the snow goose 
population by 50 percent by 2005.
    Report findings illustrate the severe degradation of 
coastal salt marsh habitat along west Hudson Bay by large 
concentrations of feeding, migrating, molting, and staging 
geese. In addition to the approximate one million snow geese 
that nest in the Hudson Bay Lowlands, 3-3.5 million geese from 
colonies north of Hudson Bay stage along the Lowlands during 
migration. Consequently, salt marsh habitats within this region 
have been damaged to the point that desertification, soil 
salinization, and the depletion of vegetative communities are 
obvious throughout the region. Preliminary results of recent 
research investigations in the La Perouse Bay area indicate 
that numbers of more than 30 avian species have declined, 
presumably due to loss of suitable habitat to foraging snow 
geese. The loss of vegetation and decline of many bird 
populations represents an overall decline in the biological 
diversity of the Hudson Bay Lowlands salt marsh ecosystem.
    Currently, 47,000 acres of the 135,000 acres of habitat in 
the Hudson Bay Lowlands are considered destroyed, 41,000 are 
damaged, and 47,000 are heavily grazed. Other arctic habitats 
may be suffering the same fate as existing snow goose colonies 
expand and new colonies are established. Ongoing research has 
identified new and expanding colonies and has indicated that 
habitat degradation is occurring in those areas also. However, 
these research efforts are still in early stages, and habitat 
degradation in other areas has yet to be documented to the 
extent that it has been in the Hudson Bay Lowlands. The Service 
intends to do what we can to halt further habitat degradation 
in new and existing areas and restore biological diversity to 
the Hudson Bay Lowlands.
    Report findings further indicate the expansion of existing 
colonies and the establishment of new colonies in areas north 
of the Hudson Bay Lowlands. Many of the new colony areas are 
experiencing rapid habitat deterioration from large 
concentrations of snow geese, similar to the deterioration 
observed on the Hudson Bay Lowlands.
    The report substantiates the need to reduce the population 
to a size that the arctic habitat can sustain. Adult survival 
has been the key factor influencing the growth of the 
population and therefore, adults must be removed from the 
population if the population is to be significantly reduced.

Service Position:

    The Service concurs with the results of the report and 
agrees with the recommendations to reduce the population. The 
Service believes the recommendations associated with population 
control by hunters should be considered before using more 
direct control measures, such as trapping and culling, 
commercial harvest, and other methods. These more direct 
control measures may be necessary, but should be considered 
only after alternative strategies within the migratory bird 
regulations do not succeed in significantly reducing the 
population within 3-5 years. Although likely more effective, 
the more direct control measures are highly controversial and 
costly. However, should the initial strategies within the 
migratory bird regulations not be successful, we feel that 
public acceptance for the more direct control measures would be 
obtainable.
    The first phase of management for this expanding snow goose 
population actually began several years ago when the Service 
increased the bag limit to 10 birds and expanded the snow goose 
season to 107 days, the maximum allowed under the Migratory 
Bird Treaty Act of 1918 (Act). Despite an increase in overall 
harvest, the rate of harvest has declined, indicating the 
population is still growing and that these strategies alone are 
not working. It is clear that adjusting regulatory management 
strategies within the current Act requirements are not enough 
to stabilize or reduce the population and the Service must 
consider new alternatives to increase the rate of harvest.
    Although harvest has not increased sufficiently to reduce 
the population's growth rate, the Service believes that this 
management tool still has the potential to be effective. 
Therefore, the Service will be implementing this population 
control measure with the intent to significantly increase take 
of snow geese outside of the season frameworks prescribed by 
the Treaty.
    The Service believes that aggressive management 
intervention is a necessary, professional and credible 
alternative. The problem of overabundant snow geese is the 
result of human activities and our changing agricultural and 
other land management practices. It is a Service responsibility 
to manage the migratory bird resource and to maintain both 
healthy sustainable populations and their associated habitats. 
Without management intervention, we would likely witness the 
destruction of an ecosystem that is important to other 
migratory birds and wildlife species. Research has already 
demonstrated a decline in local avian populations in badly 
degraded areas. It is also possible that the snow goose 
population would crash and remain at extremely low levels due 
to lack of suitable breeding habitat, the spread of disease, 
and predation. Massive disease outbreaks, in particular, could 
have devastating effects, not only on snow geese, but on other 
avian species as well. Large numbers of birds that migrate and 
stage with snow geese, including species of management concern 
such as whooping cranes, bald eagles, northern pintails, and 
many others, could suffer significant losses. The Service 
believes that responsible management action must be taken soon 
to avoid such catastrophic events.
    In the last year, considerable consultation within and 
among United States and Canadian wildlife agencies has occurred 
regarding overabundant snow geese, including numerous 
discussions with Federal, State, private, academic, and non-
governmental experts and staff. Snow goose management workshops 
were conducted in the fall of 1997 along the Central and 
Mississippi Flyways by the Service to examine the potential 
role of public lands and public land managers in resolving this 
issue. As a result, Regional Action Plans were developed in 
cooperation with the States and will be implemented over the 
next three years to help reduce snow goose numbers. These plans 
will focus on 5 points: (1) providing increased hunter 
opportunity on public and private lands, where feasible; (2) 
decreasing food availability for snow geese; (3) manipulating 
wetland areas to deter snow geese; (4) altering winter habitat; 
and (5) conducting communication and outreach efforts.
    An international Arctic Geese Stakeholder's Committee met 
over the winter to discuss the role of non-governmental 
organizations in the snow goose issue and provided the Service 
and the Canadian Wildlife Service with recommendations for 
acceptable management strategies. The Committee represented 
United States and Canadian non-governmental conservation 
groups. It recognized and supported the need for immediate 
actions and identified lethal and non-lethal methods that would 
be acceptable to reduce the snow goose population and preserve 
arctic biological diversity. Most importantly, the Committee 
recognized and supported the need for immediate action.
    United States and Canadian media have given significant 
attention to the snow goose issue over the last year. Articles 
have appeared in the Washington Post, New York Times, and many 
other local and regional Canadian and United States papers. 
Local and national TV news programs have also aired pieces on 
snow geese, including National Public Radio and CBS News. The 
Service believes that the media attention and our work with the 
Stakeholder's group has created an environment where the need 
for responsible management action is recognized both within the 
conservation community and the general public.
    The Canadian Wildlife Service has also taken this issue 
very seriously and has paralleled efforts in the United States 
to educate and involve the public and the wildlife management 
profession. They will be implementing control strategies 
similar to our own including the use of electronic callers and 
Sunday hunting during the spring migration.
    On April 6th of this year, the Service published a Notice 
of Intent announcing plans to prepare an Environmental 
Assessment that will review migratory bird regulations with the 
intent of reducing the Mid-continent lesser snowgoose 
population. In this EA, we will be considering strategies to 
implement a population control measure to increase the take of 
snow geese outside of the normal season. Strategies may include 
the use of electronic callers, unplugged shot guns, baiting, 
live decoys, rallying without the use of a motorized vehicle, 
and others. The Service will have a draft EA and a proposed 
rule available for public review and comment this summer with a 
goal of a final rule published in the Federal Register by 
January 1999.
    If final regulations are approved in early 1999, this 
population control measure would be in place for the spring 
before the geese return to the arctic. Should the initial 
phases of the management strategy be unsuccessful in 
significantly reducing the snow goose population within 3-5 
years, the Service will seriously consider more radical 
management alternatives to reduce the Mid-continent lesser snow 
goose population.
    In closing, I want to reiterate the many and increasing 
challenges we face in management of the more than 20 
populations of geese in North America. Other goose populations 
are increasing at rapid rates as well, including ``resident'' 
Canada geese throughout many parts of the United States and 
greater snow geese in the Atlantic Flyway. On the other hand, a 
number of populations, such as dusky Canada geese in the 
Pacific Flyway, the Atlantic population of Canada geese, the 
Southern James Bay population of Canada geese in the 
Mississippi Flyway, and the threatened Aleutian Canada geese, 
require careful management to protect and/or restore these 
populations. The Service is committed to working with the State 
fish and wildlife agencies, Canadian wildlife authorities, and 
public stakeholders to address the critical issue of the 
overabundance of snow geese as well as these other challenges 
we face.
    Thank you for the opportunity to be here today and your 
support for our efforts to deal with these important wildlife 
resource management issues. I would be pleased to answer any 
questions you may have regarding snow geese and the Service's 
response to this issue.
                                ------                                


  Statement of Bruce D. J. Batt, Chief Biologist of Ducks Unlimited, 
                        Inc., Memphis, Tennessee

    Good afternoon Mr. Chairman and members of the 
Subcommittee. My name is Bruce Batt. I am the Chief Biologist 
of Ducks Unlimited, Inc., headquartered in Memphis, Tennessee. 
For the past two years I have served as the Chairman of the 
Arctic Goose Habitat Working Group which was formed by the 
Arctic Goose Joint Venture Management Board to examine the 
issue of over-abundant Mid-continent Lesser Snow Geese. Ducks 
Unlimited has made my time available to this exercise because 
we have come to believe that the unprecedented large numbers of 
these geese are causing widespread and irreversible damage to 
the arctic ecosystems that support the birds during the 
breeding season in Canada Ducks Unlimited is the largest non-
government waterfowl and wetlands conservation organization in 
the world and this issue warrants our most serious attention.
    The Working Group consisted of 17 scientists, waterfowl 
managers and academics who came together to examine the 
published and unpublished information that was available on the 
status of the snow goose and the ecological consequences of 
their rapidly expanding population. We concluded that their 
numbers were at such a high level that something should be done 
to lower the population. Subsequently, we were asked to 
recommend to what level it should be reduced and to suggest 
methods that might be used to bring the numbers down. We 
completed our report entitled, Arctic Ecosystems Peril, in 
October of 1996 and published it for general release in 
February 1997.
    The title of the report was coined after we had completed 
our work and come to realize just how disastrous the 
extraordinary abundance of snow geese was to the Canadian 
arctic breeding grounds around Hudson Bay, on the arctic 
islands of Southampton and Baton and in the Queen Maud Gulf 
area.
    The official index of the population, based on counts made 
mid-winter when they gather in huge concentrations in the 
states of Louisiana, Texas, Arkansas, Mississippi and 
Tennessee, has increased from less than 900,000 in 1970 to 
about 3 million today. That change reflects an average annual 
population growth rate of about 5 percent which is very high, 
especially to be sustained for such a long period of time. 
However, independent surveys of individual colonies during the 
breeding season indicate that there are more likely over 4.5 
million birds in this population, making it the most abundant 
arctic goose in the world.
    We concluded that the extraordinary population growth is 
being driven by several human-caused factors. The most 
significant is the tremendous expansion of agriculture 
throughout the mid-continent Great Plains region of the 
continent. The geese spend about 8 months of the year in this 
region which extends from the Canadian prairies to the Gulf 
Coast of Texas and Louisiana. The abundant agricultural foods 
exploited by the geese on the Great Plains assure that, year in 
and year out, more birds survive through the wintering period 
to go back north in excellent physical condition to breed than 
was likely ever the case in pre-settlement days.
    Historically, the geese wintered along the gulf coast and 
fed in natural marshes that had limited food supplies. Some 
degradation of the coastal marshes combined with the enormous 
expansion of agriculture forced, or allowed, the geese to 
exploit a new, and effectively unlimited, food source. For 
perspective, 25 million acres of Mississippi River bottomland 
hardwood forest, which was not goose habitat in these states, 
was cleared after the second world war and converted to soy 
bean and rice fields which the geese now exploit readily.
    The second key factor was the establishment of many 
private, state and Federal wildlife refuges, which were 
designed to protect migrant and resident wildlife. These well-
intended efforts are at the heart of many of today's wildlife 
conservation practices. Indeed, myriad species depend on 
refuges to provide many of their life's requisites and wildlife 
refuges provide enormous educational and esthetic benefits to 
our society. But snow geese have an uncanny ability to 
recognize and exploit refuges, and they have done so with 
gusto. Many refuges provide safety for 100s of thousands of 
snow geese where their most significant predator in modern 
times, the hunter, is excluded.
    A third factor, related to the birds' use of refuges, is 
their unequaled ability to recognize a hunting situation and 
successfully avoid it. And because they congregate in such 
large numbers, the whole mass of geese more often than not, 
will follow the leader to safety where there are no hunters. 
After more than a decade of modifying hunting regulations to 
increase harvest of snow geese, managers have concluded that, 
with the traditional hunting methods and time frames, hunters 
have not been able to arrest the persistent growth of the 
population.
    The last factor, is a moderate change in the climate that 
has resulted in generally warmer temperatures and a longer ice-
free season in the summer when the birds breed. This results in 
fewer unsuccessful breeding seasons that previously helped to 
check population growth.
    The consequences of this out-of-control population is that 
more birds are returning each spring to breed than can be 
supported by the finite and fragile breeding habitats upon 
which the birds depend. Their massive numbers put such a high 
demand on the limited food supplies that vast tracts of the 
arctic have been converted to highly saline, bare soil where 
few plants can grow, virtually none of which are used by the 
geese. This is a similar ecological process to what is 
occurring on vast tracts of the African Continent where soil 
degradation is resulting in the expansion of the deserts and 
the permanent loss of once arable soil. On the most well-
studied habitat, along the 1100 mile Hudson and James Bay 
coastline, 35 percent of the salt marsh has been destroyed, 30 
percent is heaviIy damaged and the remainder is just heavily 
grazed. Each year, more habitats are moving up into the 
destroyed category. The destroyed marsh will take many decades 
to recover, at least most of the next century, and scientists 
are uncertain that some tracts can ever recover.
    The destroyed habitat does not provide adequate food for 
the goslings. As a result many tens of thousands die from 
starvation and disease each year. Some survive however, 
especially those that are raised at the edge of the colonies 
where some food remains or wherefrom the birds can disperse to 
areas not yet destroyed. Dispersal still allows enough goslings 
to survive to allow population growth. More northern areas do 
not appear to be damaged as much yet and population growth, on 
the larger scale, is probably fueled primarily by increases 
from those areas.
    Our Working Group concluded that the wide-scale damage on 
the southern colonies provides an unambiguous warning of what 
will happen to all the remaining habitat if the population is 
not brought to a level that can be sustained by the habitat for 
the long-term. The forecasts of what will happen if we don't 
act to reduce numbers take a couple of different views, neither 
one of which is very palatable. One view predicts that the 
numbers will grow until all the vestiges of goose habitat are 
destroyed. This would be accompanied by a population crash over 
a decade or so while few young would be produced and as the 
surviving adults left the population because of natural 
mortality. After the crash, the population would be very low 
for a very long period of time because the habitat base needed 
to support population recovery would have been destroyed.
    The alternate unhappy scenario predicts that even when 
essentially all the habitat was destroyed, enough young would 
survive from year-to-year that some level above a crash could 
be sustained. Under either scenario, 100s of millions of 
goslings would starve to death in the slum-like conditions of 
the once pristine and wild arctic region.
    But this is a bigger story than just the effects on the 
geese. This is an ``Ecosystem in Peril.'' All the other 
wildlife and plants that live in this ecosystem will also be 
decimated as it is destroyed. Most species would have other 
places in which they could survive but some are low in number 
and themselves, face threats to their survival because of 
impacts we have had on other habitats in which they live. The 
migratory birds are the most spectacular and most abundant. All 
of them migrate through Canada and the United States between 
breeding and wintering areas. Many winter in Central and South 
America and are truly important treasures in the rich bird 
fauna shared by all the Americas.
    As a result of these perspectives, the Working Group 
recommended that this unnatural phenomenon be arrested by 
strong goose population reduction measures to bring the numbers 
to a level that can be sustained by their arctic ecosystem. We 
projected that this would mean reducing the numbers by half and 
we urged that this reduction would take place by the year 2005. 
It is not possible to be certain that a 50 percent reduction is 
needed or, if it is enough, as this problem has never been 
encountered before. Thus, we recommended that any population 
reduction program should be accompanied by an extensive 
monitoring system to measure the changes in the ecosystem so 
that the point at which a sustainable number was achieved would 
be recognized and the control measures would be stabilized.
    Our recommendations focussed on reducing the numbers of 
birds harvested by hunters in the more settled areas of the 
continent and in the Canadian north by aboriginal hunters. 
These groups have always responded to wildlife management 
crises in the past and will hopefully be able to play a major 
role in solving this problem. They work for nothing, are 
trained, equipped, experienced and motivated. Other more 
``drastic'' measures such as culling and market hunting are 
included in a second tier of steps that could be taken, but 
besides their obvious unpalatability, they would be enormously 
costly to the public purse and subject to all sorts of legal 
and ethical challenges. We clearly do not want to have to 
resort to the second tier of management measures.
    The Arctic Ecosystems in Peril report has been made 
available to the scientific community for their review for over 
a year now. It was a prominent topic at the largest ever 
gathering of the world's goose biologists last January in 
Victoria, Canada. It has survived this scientific scrutiny with 
the only debate focussing on just how many geese will have to 
be removed from the population to establish a sustainable 
level. There is little disagreement in the scientific community 
about the causes of the problem or the consequences of 
continued population growth on the ecosystem, on the geese 
themselves or on the other species that will suffer collateral 
damage.
    The snow goose ``crisis'' has been the subject of hundreds 
of newspaper, magazine, radio and television pieces. These have 
stirred virtually no negative responses from the public as to 
the importance of reducing numbers to a more sustainable level. 
Communications have been thorough, balanced, and accurate and 
the message is scientifically defendable. In short, the 
scientific community and the public are well informed and well 
prepared to address this issue with a strong and asserted 
effort.
    Other goose populations are growing and threatening to 
manifest these same problems, not only in other areas in North 
America, but also in Europe, in Australia and in New Zealand. 
Each case can be traced to the same cause-and-effect 
relationship with agricultural expansion and the ``escape'' of 
the birds from traditional management practices. It is crucial 
to get on with managing this problem, not only because of the 
impacts of the snow goose on the places where it lives, but 
also because crucial lessons must be learned to help us as we 
face emerging problems with other geese in the future.
    As we have worked so diligently to change the face of North 
America to support our agricultural, urban and rural 
enterprises, wildlife has responded in a variety of ways. Many 
species have been reduced in number and distribution and we 
have come to grips with serious issues like endangered, 
threatened and extinct species. The on-going commitment to 
those needs will assure many successes in the future. However, 
over abundant species are at the other end of the continuum of 
how species respond to the new landscapes that we have crafted 
to satisfy our modern needs and wants. They demand an equally 
effective commitment to their management.
                                ------                                


  Statement of Roger Holmes, Director, Minnesota Division of Fish and 
    Wildlife and Chair, Migratory Wildlife Committee, International 
                Association of Fish & Wildlife Agencies

    Thank you, Mr. Chairman, for the opportunity to share with 
you the perspectives of the International Association of Fish 
and Wildlife Agencies on the increase of the mid-continent 
lesser snow goose (snow goose) population and the impact they 
are having on the Arctic tundra habitat. I am Roger Holmes, 
Director of the Minnesota Division of Fish and Wildlife, a 
position I have held for 8 years. Before serving as director, I 
was chief of the Minnesota Department of Natural Resources, 
Wildlife Division for 18 years. Prior to that I was a wildlife 
manager and wetland habitat biologist with the Minnesota 
Department of Natural Resources.
    I was also the state of Minnesota's representative to the 
Mississippi Flyway Council for 22 years, served on the North 
American Waterfowl Management Plan Committee for 6 years and 
currently chair the Association's Migratory Wildlife Committee 
and have done so for 8 years.
    Mr. Richard Bishop, Bureau of Wildlife Chief for the Iowa 
Department of Natural Resources and a member of the snow goose 
technical team, who has also dealt with this issue over a 
number of years, is with me to help answer questions.
    The Association, founded in 1902, is a quasi-governmental 
organization of public agencies charged with the protection and 
management of North America's fish and wildlife resources. The 
Association's governmental members include the fish and 
wildlife agencies of the states, provinces, and Federal 
governments of the United States, Canada and Mexico. All 50 
states are members. The Association has been a key organization 
in promoting sound resource management and strengthening 
Federal, state, and private cooperation in protecting and 
managing fish and wildlife and their habitats in the public 
interest.
    The Association and member agencies are very familiar with 
the necessity for action to address the over population of snow 
geese that is causing substantial adverse impact on the Arctic 
tundra. We would like to summarize background information and 
the Association's recommendations to address this problem.
    The Association is concerned that snow goose populations 
are expanding at an average rate of 5 percent a year. With this 
level of increase, nesting colonies are being impacted and 
damage to fragile Arctic tundra habitat is expanding annually. 
We applaud you and the Subcommittee for holding this hearing 
and urge you to support actions to help solve this problem.
    Mid-continent lesser snow goose populations, which are an 
international resource, now exceed 4 million breeding birds. 
This is an increase since the mid-1970's of more than 300 
percent. This over abundance of snow geese is attributed mainly 
to changing agricultural practices on the wintering grounds in 
the coastal areas along the Gulf of Mexico, and throughout the 
Central and Mississippi Flyway migration corridors. These 
practices increased the food available during migration and 
wintering periods. Also the extensive network of state, 
provincial, Federal and private wildlife refuges provide 
sanctuaries for snow geese and other migratory waterfowl.
    Scientists and wildlife managers agree that mid-continent 
lesser snow geese, which nest in the central and eastern and 
sub-Arctic regions of Canada, have become so numerous that 
fragile tundra habitats along the Hudson and James Bay lowlands 
have been severely degraded or destroyed. This is a serious 
ecological problem affecting all the diverse species of flora 
and fauna found there, thus decreasing biodiversity. There are 
indications that other bird species, such as shorebirds and 
waterfowl, which nest in the areas where severe damage has 
occurred, are in decline because their breeding habitat is 
being destroyed. As snow goose populations continue to increase 
and brood rearing habitat declines, they are dispersing to 
adjacent areas and the zone of damaged habitat is widening. 
Population levels are now well above the sustainable levels for 
the Arctic and sub-Arctic habitats upon which they depend. In 
addition, as carriers of avian cholera, snow geese are a 
potential health threat to all other bird species that share 
their nesting or wintering habitats. Furthermore, reports of 
damage to agricultural crops in the states and provinces that 
lie between those areas are increasing.
    The status and implications of increasing mid-continent 
lesser snow goose populations have been addressed by an 
international group formed by the Arctic Goose Joint Venture 
(AGJV), which itself is an international joint venture under 
the North American Waterfowl Management Plan.
    As you know, the Arctic Goose Habitat Working Group 
submitted its comprehensive report in 1997 entitled Arctic 
Ecosystems in Peril. The Report documented the ecological 
problems of the salt marsh habitats found in the Hudson Bay 
Lowlands, such as desertification, soil salinization and the 
depletion of vegetation communities. The IAFWA agrees with the 
findings of that report, which encourages U.S. and Canadian 
wildlife agencies to take immediate action. More recently, a 
group of stakeholders from Canada and the United States met to 
consider solutions to the over population problem. The Report 
of the Stakeholder's Committee on Arctic Nesting Geese (dated 
March 11, 1998) was accepted and endorsed by the IAFWA 
Waterfowl subcommittee and Migratory Wildlife Committee at 
their meetings in March, 1998. We understand that the Committee 
has a copy of that report.
    It must be recognized that the over-abundance of snow geese 
is a man made problem. It also must be recognized that the snow 
goose population has become a threat to itself and without 
immediate action, ecological damage in affected habitats could 
be catastrophic and some scientists believe this damage could 
be permanent. Habitat recovery in areas that are not yet 
permanently damaged will take decades or even centuries to 
recover. To let nature take its course for snow geese is not 
acceptable. If the adult snow goose population is not reduced 
to sustainable levels in the near future, in addition to the 
habitat degradation, millions of snow geese will die from 
starvation and disease. Should the population ``crash'' in this 
manner, it is likely that snow geese would not recover because 
of long term or even permanent loss of habitat to support the 
rebuilding of populations. Effective management measures must 
be directed towards reducing adult survival. The mid-continent 
lesser snow goose population must be reduced by approximately 
50 percent of its current size. To do this, we are recommending 
that snow goose numbers be reduced by 5 percent to 15 percent 
annually using the strategies noted below. Multifaceted and 
multiagency approaches are required. There is almost no risk of 
the recommended management policies causing over-harvest of 
mid-continent lesser snow geese within the next several years.
    As noted earlier, the IAFWA agrees with the Stakeholders 
Report. The following are taken from the guiding principles and 
recommendations sections of that report:

Guiding Principles

    1. Lethal and non-lethal actions should be pursued simultaneously.
    2. Adaptive management strategies involving enhanced evaluation and 
monitoring of the ecosystem and populations of snow geese and other 
species, as recommended in Arctic Ecosystems in Peril, must be a 
component of a lesser snow goose population reduction program.
    3. Necessary resources must be provided by the agencies to carry 
out implementation, enforcement, evaluation, and monitoring of snow 
goose reduction programs and long term population management.
    4. Snow geese must be treated with respect as a valuable component 
of the natural ecosystem. Geese that are killed for management reasons 
must be killed as humanely as possible and utilized as food wherever 
feasible.
    5. Recommendations regarding harvest regulations apply to a white 
goose only season when all other waterfowl seasons are closed.
    6. Ecosystem restoration and sustainability should be the long-term 
objective, with an intent to benefit all species of plants and animals.

Recommendations

    1. United States and Canadian governments should permit a 
Conservation Harvest of white geese between March 11 and August 31, 
where and when appropriate.
    2. Subsistence harvest, including egging, should be encouraged in 
Canada where appropriate.
    3. The survival and productivity of lesser snow geese should be 
reduced through the appropriate management of public lands, including 
State, Federal, and Provincial refuges, and, where appropriate, private 
land.
    4. The U.S. Fish and Wildlife Service and Canadian Wildlife Service 
should consider allowing the use of electronic callers.
    5. The U.S. Fish and Wildlife Service and Canadian Wildlife Service 
should consider increasing bag and possession limits.
    6. Federal, State, and Provincial agencies are encouraged to 
develop mechanisms to facilitate snow goose hunting.
    7. State and Provincial agencies should consider innovative methods 
such as reciprocal licensing to encourage non-resident hunters.
    8. Agencies should develop and implement comprehensive education 
and outreach programs for the public and address both positive and 
negative impacts that habitat management actions have on migratory bird 
populations, specifically regarding agricultural practices and private 
lands management.
    9. Agencies should review the effectiveness of hazing as a 
management tool on a site specific basis.
    10. Agencies should review the effectiveness of nest destruction on 
a site specific basis.
    We are aware that the U.S. Fish and Wildlife Service published a 
notice of intent on April 6, 1998 indicating that it would prepare an 
Environmental Assessment that would review the migratory bird 
regulations with the intent to significantly reduce snow goose numbers. 
We support the notice of intent and the preparation of the 
environmental assessment dealing with this issue.
    It must be recognized that there is a distinct lack of funding for 
goose management programs. The need for better biological data through 
monitoring programs, habitat management, and other forms of population 
management is increasing while Federal budgetary resources are 
decreasing. The Joint Flyway Councils have recommended a budget 
increase of approximately $10 million to adequately address goose 
population monitoring, management and research needs.
    In conclusion, Mr. Chairman, the Association firmly supports the 
recommendations contained in the Arctic Geese Stakeholders Report and 
we would urge the Subcommittee to support increased funding to ensure 
that the problem of over-abundance of mid-continent lesser snow geese 
is addressed.
    Thank you for the opportunity to share the Association's 
perspectives. Mr. Bishop and I would be happy to address any questions 
you might have.
                                 ______
                                 

         Statement of Dr. Frank Gill, National Audubon Society

    Chairman Saxton, I appreciate this opportunity to appear 
before the Subcommittee today to testify on the detrimental 
impact of Snow Geese on Arctic resources.
    My name is Dr. Frank Gill, Senior Vice President and 
Director of Science of the National Audubon Society. I am also 
President of the American Ornithologists' Union, the country's 
foremost society of professional ornithologists. With me is Ms. 
Genevieve Thompson, Executive Director of Audubon's North 
Dakota State Office.
    The National Audubon Society is one of the nation's leading 
environmental organizations. We have 550,000 members, organized 
in 520 chapters in the U.S., Canada, and Central America. Our 
members are concerned about birds, wildlife, and their 
habitats. Audubon's involvement with the issue of snow goose 
overpopulation has included: (1) representation on the Arctic 
Goose Habitat Working Group; (2) participation in the Hudson 
Bay Lowland Excursion, coordinated by the Arctic

Goose Joint Venture Management Board; and (3) representation in 
the Stakeholder's Committee on Arctic Nesting Geese.
    The National Audubon Society endorses the recommendations 
of the Arctic Goose Habitat Working Group, an international 
team mandated to scientifically document this urgent ecological 
problem. It is essential that we develop immediate steps that 
directly reduce the mid-continent population of Lesser Snow 
Geese. Long-term solutions which may involve changes in land-
use practices in the southern and central United States also 
need to be developed.
    The mid-continent population of Lesser Snow Geese (breeding 
west of Hudson Bay, and wintering on the southern Great Plains 
and western Gulf Coast) has grown by about 300 percent since 
the 1960s, and is now estimated at well over three million 
birds. The population is continuing to grow at an annual rate 
of 5 percent. This unprecedented number of mid-continent Lesser 
Snow Geese has had an extensive, destructive, and potentially 
irreversible effect on arctic and sub-arctic staging and 
breeding habitats.
    The Snow Goose population nesting west of Hudson Bay, 
Canada, has reached incredible densities (sometimes with as 
many as 3,000 nests packed into one square kilometer of 
tundra). Plant species are being destroyed at unprecedented 
levels as a result of grubbing (by the root) and grazing by the 
burgeoning Snow Goose population in the Arctic. These plants 
are being replaced over vast areas by unpalatable, salt-
tolerant species. To quote Robert F. Rockwell, Kenneth F. 
Abraham, and Robert L. Jeffries [Winter 1997 issue of the 
Living Bird Quarterly] ``Scientists are concerned that the 
increasing numbers of geese may soon lead to an ecological 
catastrophe as these voracious feeders turn the delicate arctic 
habitat they inhabit into a barren wasteland.''
    Ironically, the problem of too many Snow Geese is one of 
our own making. The rapid increase in mid-continent Snow Goose 
populations is primarily a result of human modifications of 
habitat on the wintering grounds, along the migratory routes, 
and in the staging areas. Agricultural land-use and wildlife 
management practices have provided a nutritional ``subsidy,'' 
and have led to high winter survival and recruitment rates. 
Efforts to protect and enhance populations of waterfowl have 
worked too well for Snow Geese. Each year, an expanded 
population of Snow Geese has arrived in their arctic habitat in 
a stronger condition, with increased breeding success.
    These burgeoning numbers of mid-continent Lesser Snow Geese 
have caused widespread and potentially irreversible devastation 
to two-thirds of the habitat that otherwise would be mostly 
pristine tundra west of Hudson Bay in Canada. Long term studies 
show that populations of many bird species that depend on 
tundra habitat are declining precipitously as a result of the 
growing Snow Goose population. These include species from the 
Partners in Flight ``WatchList'' of birds at risk such as 
Hudsonian Godwit and Smith's Longspur, other rare species such 
as Yellow Rail, American Golden Plover, and Stilt Sandpiper.
    If we do not act, nature will not ``take its course'' in 
the short time needed to halt devastation of the tundra. This 
is due to the increased ability of Snow Geese to sustain 
themselves on the wintering grounds in ever-greater numbers. It 
is also due to the species' demonstrated ability and 
willingness to extend their Arctic/Subarctic nesting and 
foraging ranges continually as existing breeding grounds 
deteriorate. Although negative effects of these factors have 
been observed in Snow Geese offspring (i.e., smaller size, poor 
feather development, and increased disease and mortality), 
adult survival continues to increase. A potential scenario is 
that before millions of these geese suffer a population crash, 
they will have spread across much of the Arctic, devastating 
huge areas of tundra, and taken several other valuable bird and 
animal species with them.
    We are here today to publicly state the unanimous 
resolution of National Audubon's Board of Directors to protect 
wildlife habitat and ecosystems in the Arctic and Subarctic 
currently under threat from damage by burgeoning populations of 
Lesser Snow Goose. The Board voted in September 1997 to support 
the science-based recommendations of the Arctic Goose task 
force to reduce the mid-continent population of the Lesser Snow 
Goose through expanded hunting and other means. Audubon's 
concern in this situation is in line with the Society's mission 
to protect birds, wildlife, and their habitat, using the best 
tools available.
    The Board resolution commits the National Audubon Society 
to work closely with Federal, state and Canadian agencies, and 
other non-governmental organizations to define the most 
effective mix of short-term and long-term solutions to the Snow 
Goose population problem. By acting now, we hope to reduce the 
loss of critical habitat and to protect the many bird species 
and other wildlife that depend on this habitat.
    Mr. Chairman, once again I want to thank you for providing 
me with this opportunity to testify before the Subcommittee 
today. Ms. Thompson and I would be happy to answer any 
questions you might have.
                                ------                                


 Statement of Mark Van Putten, President, National Wildlife Federation

                            Office of the President
The Hon. Jim Saxton, Chairman,
Fisheries, Wildlife and Oceans Subcommittee,
Resources Committee,
U.S. House of Representatives,
Washington, DC.
    Dear Mr. Chairman: I understand that the Fisheries, Wildlife and 
Oceans Subcommittee will be holding a hearing on April 23, 1998 to 
examine the overpopulation of mid-continent arctic snow geese and its 
subsequent impact to the arctic ecosystem. This is a wildlife 
management issue of concern to the National Wildlife Federation (NWF).
    In March of this year at the NWF Annual Meeting the resolution 
``Protection of the Arctic Ecosystem'' was approved by our 46 
independent state and territorial affiliate organizations. I ask that 
this letter and the attached resolution be entered in the hearing 
record.
    Thank you.
            Sincerely,
                                           Mark Van Putten,
                                                          President
Attachment: NWF 1998 Resolution ``Protection of the Arctic Ecosystem''

                   PROTECTION OF THE ARCTIC ECOSYSTEM

    WHEREAS, the National Wildlife Federation is the nation's 
largest conservation education organization and is dedicated to 
protecting our environment and conserving and restoring 
wildlife and their habitats; and
    WHEREAS, the mid-continent population of lesser snow geese 
(Chen caerulescens) is a valuable waterfowl resource of 
international importance that has increased dramatically in the 
last ten years; and
    WHEREAS, the fragile tundra habitat of these geese in large 
portions of the Arctic ecosystem along and west of Hudson Bay 
is undergoing widespread devastation caused by overgrazing due 
to overpopulation of these geese as a result of the abundance 
of food on winter ranges; and
    WHEREAS, this largely pristine tundra habitats is important 
not only to sustainable populations of lesser snow geese, but 
to many other bird species as well as other plant and animal 
species; and+
    WHEREAS, scientific research suggests that the alterations 
of plant community composition and structure and increased soil 
salinity due to the overgrazing by lesser snow geese of their 
nesting habitat may be irreversible; and
    WHEREAS, current agricultural practices and hunting 
regulations on the wintering grounds, along migratory routes 
and in staging areas of Lesser Snow Geese are perpetuating 
lesser snow goose populations at levels higher than breeding 
habitat can endure without destruction of that breeding 
habitat; and
    WHEREAS, the National Wildlife Federation has long 
supported and endorsed the sound scientific management of 
wildlife and the habitats upon which wildlife depend; and
    WHEREAS, the National Wildlife Federation believes 
controlled hunting and native harvests to be the most 
appropriate scientifically based strategies for reducing the 
mid-continent population of Lesser Snow Geese;
    NOW, THEREFORE, BE IT RESOLVED that the National Wildlife 
Federation in its Annual Meeting assembled March 19-22, 1998, 
in Alexandria, Virginia, reiterates its support for the sound 
scientific and sustainable management of wildlife and their 
habitats; and
    BE IT FURTHER RESOLVED that the National Wildlife 
Federation encourages and advocates the immediate development 
and implementation of sound, scientifically based strategies to 
reduce the mid-continental population of lesser snow geese to 
levels at which their breeding habitat can be maintained; and
    BE IT FURTHER RESOLVED that the National Wildlife 
Federation recommends that priority be given to harvest 
strategies including more liberal Federal regulatory guidelines 
specifically targeting lesser snow geese hunting methods and 
native harvests before other control measures are employed, if 
necessary; and
    BE IT FURTHER RESOLVED that the National Wildlife 
Federation urges continued research and the restoration, where 
possible, of the fragile and critically important subarctic 
tundra habitat destroyed or degraded by snow goose overgrazing; 
and
    BE IT FURTHER RESOLVED that the National Wildlife 
Federation encourages and advocates the development and 
implementation of long-term strategies relative to land-use 
practices, including agriculture, harvest methods and 
regulatory controls on the wintering grounds, along migratory 
routes, and in the staging areas of the mid-continental 
population of lesser snow geese to help maintain their 
population at a level which will conserve their Arctic 
ecosystem.
                                ------                                


Statement of John W. Grandy, Ph.D., on behalf of The Humane Society of 
                           the United States

    Thank you, Mr. Chairman, for the opportunity to present to 
the Subcommittee the views of The Humane Society of the United 
States on House Concurrent Resolution 175--expressing the sense 
of Congress regarding the need for a comprehensive management 
strategy to save the tundra from continued excessive 
depredations by the mid-continent lesser snow goose. I am Dr. 
John W. Grandy, Senior Vice President for Wildlife and Habitat 
Protection. I hold a Ph.D. in wildlife ecology and management. 
My doctoral dissertation focused on waterfowl biology; I have 
been involved both professionally and personally in associated 
issues throughout my career.
    The Humane Society of the United States, or The HSUS, is 
the nation's largest animal protection organization, with more 
than six million members and constituents. I appreciate the 
opportunity to testify on behalf of these individuals.
    The mid-continent population of lesser snow geese breeds in 
the Canadian Arctic and winters in Texas, Louisiana and other 
Gulf Coast states. Since the 1940s, the availability of 
agricultural waste grain (e.g., soybeans and rice), has allowed 
more geese to survive the winter in good condition relative to 
earlier years in this century when wintering geese were 
sustained largely on salt marsh grasses bordering the Gulf of 
Mexico. As a result, the geese have been returning to their 
Arctic breeding grounds in good condition. Reproduction has 
been successful, leading to a population increase in scattered 
portions of the Arctic.
    Some researchers are now expressing concern that there are 
more snow geese than their Arctic breeding grounds can support. 
Habitat destruction has been documented, principally in the La 
Perouse Bay region near Churchill, Manitoba and at Cape 
Henrietta Maria (the western point at which James Bay opens 
into the Hudson Bay).
    Although damage has not been quantified or even seriously 
documented throughout the huge areas in the Arctic used by 
these geese, the Fish and Wildlife Service (hereinafter ``FWS'' 
or ``Service'') has announced that it plans to implement 
changes in hunting regulations aimed at the killing of half or 
more of the current population of mid-continent lesser snow 
geese. Specifically, the Service will permit, encourage and 
facilitate the indiscriminate slaughter of one and a half to 
three million snow geese over the next eight years, regardless 
of whether the geese are associated with so-called unacceptable 
habitat alterations.
    This is being proposed allegedly to alleviate a purported 
``ecological crisis'' on their breeding grounds as a result of 
snow geese eating vegetation and living their natural lives. 
Recommendations and suggestions under active consideration 
include: encouraging hunters to kill even more snow geese 
during the regular hunting season; permitting spring hunting 
(after March 10); increased daily kill (so-called bag) limits 
(so that up to 100 snow geese per day could be legally killed 
or, as an alternative, permitting unlimited killing); use of 
electronic calls; use of baiting to lure hungry geese into 
hunting areas; and, use of hazing to put excessive stress on 
migrating snow geese so as to stop them from feeding, thereby 
reducing their body condition and decreasing their nesting 
success. In addition, Canadian natives would be encouraged to 
collect as many eggs as possible, regardless of the status of 
the snow goose population from which eggs are taken. The Humane 
Society of the United States is strongly opposed to the entire 
plan, and the aforementioned recommendations and the 
indiscriminate, massive and brutal slaughter that would result.
    The situation is this. There is evidence from La Perouse 
Bay (a relatively small area on the western edge of Hudson 
Bay), and parts of the Hudson Bay lowlands, and largely 
anecdotal evidence from a few other areas that habitat change 
is occurring as a result of use by snow geese. The area in 
which this is occurring is approximately 100,000 acres, and two 
or three snow goose colonies are implicated. By contrast, the 
Arctic ecosystem is vast, consisting of millions of square 
miles, and snow goose nesting colonies are scattered widely 
throughout the Arctic, from Russia's Wrangle Island in the 
west, north to and along the shores of the Arctic Ocean in 
Canada, to and beyond Baffin Island in eastern Canada, and 
south to Hudson and James Bay in Canada. In short, the Arctic 
habitat for snow geese and other animals occurs across 
literally millions of square miles.
    These populations are by no means homogeneous. For example, 
in contrast with the population in La Perouse Bay, the 
population in West Hudson Bay has decreased from 400,000 to 
less than 200,000 geese in recent years, and others are 
relatively stable (western Arctic), declining or endangered 
(Wrangle Island), or apparently large but unstudied (Baffin 
Island and associated areas). Most populations of snow geese 
have not been studied to any significant degree, and no 
systematic surveys have been conducted to determine whether 
they are having any measurable effect on their habitat. Yet, if 
the pending FWS proposal is adopted, snow geese and other 
``white'' geese (e.g., Ross' goose), will be subject to 
slaughter in the spring, regardless of their species, or the 
condition of their breeding habitats or the breeding colony. In 
the opinion of The HSUS, this constitutes indiscriminate, 
needless slaughter by any definition.
    No governmental or private biologist involved in 
formulating the current proposal has presented evidence that 
would in any way justify this type of mass destruction or 
annihilation of these magnificent animals. There is some 
evidence of significant habitat alteration in La Perouse Bay 
and along the Hudson Bay lowlands, but this must be put into 
the context of the Arctic. The Arctic is vast, consisting of 
one or multiple ecosystems. Catastrophic change is and has been 
the operative factor influencing life in Arctic ecosystems 
throughout history. The Arctic has been subject to at least 
three periods of significant glaciation, and now, if current 
predictions hold, much of the lowland Arctic is subject to 
imminent flooding due to global warming and sea level rise. 
Against this backdrop, how can the Congress and the FWS 
conclude that habitat change caused by snow geese is so severe 
as to be irreparable or to necessitate the brutal destruction 
of millions of snow geese?
    The well-known and sporadic eruptions of snowy owls, 
lemmings, and Arctic hare testify to the dramatic population 
changes of Arctic animals that occur with some frequency. The 
current snow goose population dynamics are nothing more than a 
continuation of this pattern. And, while snow geese may cause 
some localized habitat alterations and alteration of 
distribution patterns of specific species, these effects could 
not possibly require or justify the kind of destructive 
draconian solution that slaughtering one and a half to three 
million snow geese would entail.

Specific Problems with the Pending Management Actions

Use of Lethal Control

    An important principle of the control of damage that 
wildlife sometimes causes is that control is most, and often 
only effective, if it is targeted precisely at the area where 
damage is occurring. Applied to this situation, this means that 
if lethal control is justified at all, it must be centered 
where the damage is occurring to be effective. A principal way 
to do this would be to round up and slaughter geese on the 
particular habitats where damage is occurring during the summer 
flightless period when weather is good, if it can be shown that 
habitat damage is severe enough to warrant such action. As 
distasteful as this would be to The HSUS, it at least has the 
chance to be effective in reducing the localized habitat damage 
that is documented in specific areas.
    It is telling that this alternative has not been seriously 
considered by the FWS or the agencies and organizations 
supporting it. Moreover, governmental and non-governmental 
biologists supporting the FWS proposal never seriously 
addressed the futility of trying to reduce habitat destruction 
in specific areas in Canada by randomly killing snow geese 
thousands of miles away. They are opting instead for the 
indiscriminate, wanton and inhumane destruction that would 
result from having hunters kill millions of snow geese in 
Arkansas, Texas, Nebraska and the Dakotas. Frankly, given the 
demonstrable futility of attempting to protect specific 
habitats by randomly killing geese thousands of miles away, 
this proposal seems designed more to convince hunters and the 
public that random slaughter of wildlife is acceptable.

Generalized Egging

    The FWS will likely endorse generalized egging (taking eggs 
from nests), when only a few colonies in Canada may need to be 
reduced. While collection of freshly laid eggs (or even nest 
disruption or destruction) is more acceptable to The HSUS as a 
means of population control than killing of adults, it is 
equally unacceptable where it cannot be justified.
    The point here, of course, is that snow geese are not an 
animal for which generalized population destruction or 
disruption can be or has been justified, and thus these 
activities can only be permitted on the basis of serious 
evidence demonstrating need in particular colonies.
    The Proposed Eight-year Population Reduction Raises Serious 
Doubts over the Rationale for the Entire Proposed Program
    The FWS and its supporters have stated repeatedly that the 
impact of snow geese on Arctic ecosystems rises to the level of 
a crisis, thereby requiring an immediate and aggressive 
response. The proposed response, however, entails an eight-year 
effort to reduce the current snow goose population by half. If 
damage at unacceptable levels is in fact severe and increasing 
at an alarming rate, then that damage should be addressed now, 
at the sites where it is occurring. A willingness to wait eight 
years to alleviate the ``crisis'' belies the assertion that one 
in fact exists, or that damage is so severe as to necessitate 
indiscriminate slaughter.

Concern for Young Snow Geese

    The FWS, and others, suggest that the proposed slaughter is 
necessary in part to prevent the suffering of snow goose 
goslings, which may suffer as a result of food shortage. This 
is preposterous. It is absurd for the Service to suggest that 
it wishes to stop natural population regulation in the form of 
some goslings dying from a natural food shortage and then 
suggest that the solution is to subject millions of adult geese 
to unnecessary and indiscriminate suffering.

Message the Proposal Sends to the Public

    Apart from all the issues addressed above, The HSUS is 
gravely concerned about the message the proposed ``solution'' 
sends to the public, our children and future generations. That 
massive slaughter of adult snow geese is the first and only 
proposed remedy is appalling. These are magnificent birds, 
which may live more than eight years, remain in family groups, 
and teach their offspring. They are not inanimate objects; they 
are living, breathing sentient animals that deserve our 
respect. As a society and world, we must find better ways to 
solve wildlife problems than by killing animals, much less than 
by encouraging indiscriminate and brutal slaughter of millions 
of animals.
    The Congress and the Service are on the cusp of sending a 
very clear message to an increasingly involved public that the 
way to deal with wildlife problems, including those whose 
ultimate cause is human activity, is by destroying wildlife. 
Increasingly, an ever-more caring public is calling for 
wildlife management that includes a sense of stewardship, 
humility, respect and compassion, and makes significant and 
reasonable efforts to solve wildlife problems in the least 
destructive ways possible. The FWS proposal simply does not 
meet that standard. The Humane Society of the United States 
rejects it, and strongly urges the Subcommittee to reject House 
Concurrent Resolution 175 as well.
    Thank you.
    [GRAPHIC] [TIFF OMITTED] T8615.001
    
    [GRAPHIC] [TIFF OMITTED] T8615.002
    
    [GRAPHIC] [TIFF OMITTED] T8615.003
    
    [GRAPHIC] [TIFF OMITTED] T8615.004
    
    [GRAPHIC] [TIFF OMITTED] T8615.005
    
    [GRAPHIC] [TIFF OMITTED] T8615.006
    
    [GRAPHIC] [TIFF OMITTED] T8615.007
    
    [GRAPHIC] [TIFF OMITTED] T8615.008
    
    [GRAPHIC] [TIFF OMITTED] T8615.009
    
    [GRAPHIC] [TIFF OMITTED] T8615.010
    
    [GRAPHIC] [TIFF OMITTED] T8615.011
    
    [GRAPHIC] [TIFF OMITTED] T8615.012
    
    [GRAPHIC] [TIFF OMITTED] T8615.013
    
    [GRAPHIC] [TIFF OMITTED] T8615.014
    
    [GRAPHIC] [TIFF OMITTED] T8615.015
    
    [GRAPHIC] [TIFF OMITTED] T8615.016
    

</pre></body></html>
